Inspectors General
u.S.  Department of State and
U .S. Department of Defense




Interagency Assessment of
the Counternarcotics
Program in Afghanistan
July 2007

Department of State
Report No. ISP-I-07-34


Department of Defense
Report No. IE-2007-005
Department of State Office of Inspector General

Vision: To be a world-class organization promoting effective management,
accountability, and positive change in the Department of State, the Broadcasting Board
of Governors, and the foreign affairs community.




Department of Defense Office of Inspector General

Vision: One Professional Team of Auditors, Inspectors, and Investigators, Inspiring by
Paradigm a Culture of Integrity, Accountability, and “Intelligent Risk-Taking”
Throughout the Department of Defense




On the Cover: We have chosen the Statue of Freedom from the United States Capitol as
a symbol to be reflected in our report cover.

The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in
1857-1859. Crawford described his creation as being readable understandable by the
American people:

“I have endeavored to represent Freedom triumphant – in Peace and War…In her left
hand she holds the olive branch while the right hand rests on a sword which sustains the
Shield of the United States. These emblems are such as the mass of our people will easily
understand ….I have introduced a base surrounded by wreaths indicative of the rewards
Freedom is ready to bestow…”

Allen, William C., The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of
George M. White, FAIA, Architect of the Capitol, US Government Printing Office Washington: 1992
Department of State Office of Inspector General

Vision: To be a world-class organization promoting effective management, accountability, and positive change in the
Department of State, the Broadcasting Board of Governors, and the foreign affairs community.




Department of Defense Office of Inspector General

Vision: One Professional Team of Auditors, Inspectors, and Investigators, Inspiring by Paradigm a Culture of Integrity,
Accountability, and “Intelligent Risk-Taking” Throughout the Department of Defense




On the Cover: We have chosen the Statue of Freedom from the United States Capitol as a symbol to be reflected in our
report cover.

The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in 1857-1859. Crawford described
his creation as being readable understandable by the American people:

“I have endeavored to represent Freedom triumphant – in Peace and War…In her left hand she holds the olive branch
while the right hand rests on a sword which sustains the Shield of the United States. These emblems are such as the
mass of our people will easily understand ….I have introduced a base surrounded by wreaths indicative of the rewards
Freedom is ready to bestow…”

Allen, William C., The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of George M. White, FAIA, Architect of the
Capitol, US Government Printing Office Washington: 1992
                            U.S. Department of State and
                            U.S. Department of Defense




                                       PREFACE




       This report was prepared by the Offices of Inspector General of the Departments
of State and Defense with input from and coordination with the Department of Justice,
pursuant to the Inspector General Act of 1978, as amended.

       The report assesses the strengths and weaknesses of the U.S. Government’s role in
the counternarcotics programs in Afghanistan and provides recommendations for
program improvements.

       The interagency State/Defense/Justice Inspectors General team collected
information from various open sources and met with senior civilian and military officials
in Washington D.C.; London, United Kingdom (Joint Narcotics Analysis Center);
Brussels, Belgium (European Union and NATO); and Vienna, Austria (United Nations
Office of Drug Control). During their field visits to Afghanistan, the team interviewed
Embassy Kabul staff members, senior U.S. and coalition military commanders,
international partners, and government of Afghanistan officials.

       Recommendations in the report are based on the best knowledge available to the
Offices of Inspector General and have been discussed with those responsible for
implementation. These recommendations should result in more effective, efficient, and
economical operations.

        We appreciate the cooperation of all those who contributed to the preparation of
this report.
                                 UNCLASSIFIED



Key Judgments
  •   The “Five Pillar” approach to counternarcotics in Afghanistan (eradication,
      alternative livelihoods, interdiction/law enforcement, justice reform, and public
      information) is reasonable and comprehensive. Attention to each pillar must
      move forward in a coordinated fashion. There are no quick fixes. Achieving
      lasting success is a long-term proposition.

  •   U.S. Government counternarcotics efforts depend on the Government of Afghanistan
      demonstrating both a firm determination and demonstrated ability to deal with the issues.

  •   Progress on counternarcotics issues is linked to defeating the insurgency,
      combating corruption, and extending effective governance throughout the
      country. There is consensus within the U.S. Government that counternarcotics is
      critical to and interrelated with all aspects of U.S. Government’s involvement in
      Afghanistan. The priority of counternarcotics relative to other objectives is not
      clear and should be established and agreed to by all U.S. Government elements
      involved in the effort.

  •   During fiscal year 2006, the U.S. Government allocated over $420 million
      through the Departments of State, Defense and Justice, and the Agency for
      International Development for counternarcotics efforts in Afghanistan. This is
      dwarfed by the approximately $755 million Afghan poppy farmers received for
      their 2006 crop, the estimated $2.5 billion accrued to Afghan traffickers, and the
      $38 billion ‘street’ value if that entire crop were converted to heroin (UNODC
      figures for London). There is no realistic possibility of outspending economic
      incentives in the narcotics industry.

  •   U.S. Government counternarcotics programs are not adequately integrated and
      coordinated among participating departments and agencies. Management and
      oversight of these programs merit more staff resources. The quality and extent of
      interagency cooperation are highly dependent on the capabilities of the embassy
      ‘drug czar,’ a contract employee. A different management model is
      recommended to strengthen planning, oversight, and coordination.

  •   The Alternative Livelihood Program, as an element of economic development,
      holds promise and should be continued. A newly conceived Good Performers
      Fund would reward provinces where there is no-to-low poppy cultivation, and the
      Fund should be implemented. A more focused allocation of funds between
      alternative livelihood programs and the good performers fund may increase the
      overall reduction in poppy cultivation through economic incentives to Afghan
      farmers. However, economic development alone cannot adequately address
      counternarcotics, except possibly in the very long-term.



Interagency Assessment of Afghanistan Counternarcotics Programs                       1
                                   UNCLASSIFIED

    • United Nations pre-planting surveys indicate that 2007 poppy cultivation may
      equal – or even exceed – 2006 levels. Eradication capabilities have modestly
      increased, but preliminary goals for eradication in 2007 (at least 30,000 hectares)
      are unrealistic.

    •   The Office of Management and Budget guidance is to include U.S. Government
        operations in Afghanistan in annual operating budgets. The long-term nature of
        the undertaking requires multi-year commitments.

    •   Security in the poppy producing provinces is a growing concern. This
        necessitates further reliance on aircraft and air support for execution of
        counternarcotics programs. Current airlift capacity is inadequate for a variety of
        funding, equipment, personnel, and bureaucratic reasons.

    •   Public information efforts have not succeeded. Relevant U.S. programs are
        dependent on contractors. The contracts have statements of work that lack
        sufficient precision for adequate oversight. The embassy should provide closer
        oversight and evaluation of public information efforts.

    •   International Security Assistance Force assumption of control over coalition
        military forces will impact counternarcotics efforts. National ‘caveats’
        (reservations on how respective coalition forces can be used in Afghanistan)
        restrict counternarcotics activities in particular provinces. Closer international
        coordination is needed.

Interagency Assessment

        An interagency team (IG assessment team) representing the offices of Inspectors
General of the Departments of State, Defense, and Justice carried out this assessment of
U.S. Government-funded counternarcotics programs in Afghanistan. Between September
5 and November 5, 2006, members of the team interviewed officials and visited facilities
in the U.S. (Washington DC, Tampa, Florida), Europe (London, England, Brussels,
Belgium, Vienna, Austria), and Afghanistan (Kabul, Kandahar, Lashkar Gah, Jalalabad,
Turkham, Faizabad, and Charchaghan).

        Team members were: Ambassador David Zweifel (Department of State, Overall
Team Leader); Thomas Martin (Department of State, Deputy Team Leader); George
Marquardt (Department of Defense Lead Inspector); John I. Provan (Department of
Justice); Jay Dehmlow (Department of State); Auburn Parker (Department of Defense);
Steven Rounds (Department of State).

        The information in this report is current as of November 5, 2006.




2                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED



Executive Summary
Purpose:

        This assessment reviewed the counternarcotics (CN) programs in Afghanistan
funded, directed, managed, or contracted by the Departments of State, Defense, and
Justice. The IG assessment team evaluated the overall effectiveness of U.S. strategy,
management structure, and interagency cooperation and coordination. The assessment
was based on the U.S. Government Five Pillar Strategy for the CN efforts in Afghanistan
(eradication, alternative livelihoods, interdiction/law enforcement, justice reform, and
public information). Work focused on four areas.
   •   Conception, conduct, and management of U.S. Government-funded
       counternarcotics programs in Afghanistan.
   •   Organization, coordination, and direction of interagency participation.
   •   Interaction with the Afghan government on counternarcotics issues.
   •   Impact, effectiveness, and prospects of these counternarcotics actions and
       programs.
       The IG assessment team did not examine internal controls over financial,
physical, and personnel resources; and reviewed management of only those contracts
associated with the CN public information campaign.

Context:

        CN efforts in Afghanistan have not succeeded in stemming the production,
processing, and trafficking of opium and opiates. Poppy acreage under cultivation and
opium production both set records in 2006, accounting for 92 percent of the world’s raw
opium. There is broad agreement that Afghanistan’s production of and trafficking in
opium and opiates is of international concern and importance. Success in countering the
narcotics production and trafficking problem requires cooperation and consensus among
the Government of Afghanistan (GOA) officials, the broader international community
and the U.S. Government.

         Afghanistan’s opium and opiates are distributed and consumed primarily in
Southwest and Central Asia, Western and Eastern Europe, and along the trafficking
routes in between. The U.S. Government continues to assume major responsibility for
undertaking CN efforts in spite of the modest direct impact of Afghan opium production
on the United States. U.S. Government policy makers are keenly aware of the necessity
for a strong interrelationship among the counternarcotics, rule-of-law/good governance,
anti-corruption, anti-terrorist, and security programs in Afghanistan.

        Since the fall of the Taliban in 2001, the GOA has taken a number of significant
steps to combat narcotics, and additional, continuous national commitment is necessary



Interagency Assessment of Afghanistan Counternarcotics Programs                       3
                                   UNCLASSIFIED

to solve the narcotics problem. Development of an Afghan capacity – human and
physical – is a prerequisite for an effective and sustainable CN program.

       The insurgency and the narcotics industry are increasingly linked, and both
contribute to pervasive corruption. There is consensus among foreign and Afghan
observers that the narcotics problem in Afghanistan is a long-term issue.

Results:

       The U.S. Government’s five-pillar CN strategy is reasonable and comprehensive.
The IG assessment team identified several cross-cutting factors that merit discussion.
    •   Security – The situation deteriorated over the past two years, adversely affecting
        every pillar of the Afghan CN strategy.
    •   Policy prioritization – The IG assessment team was unable to determine how the
        counternarcotics strategy fits in with broader U.S. Government objectives in
        Afghanistan.
    •   Resources availability/adequacy – Not all U.S. Government departments and
        agencies participating in the Afghanistan CN programs have incorporated
        Afghanistan programs in regular budget requests and continue to rely on
        Congressional supplemental appropriations.
    •   Contracting – Contractors carry out many U.S. Government-funded CN programs.
        However, with the exception of the U.S. Agency for International Development
        (USAID), many CN contracts were put in place when there was no in-country
        contracting officer's representative or project officer.
    •   Interagency coordination/management – Embassy Kabul's CN organizational
        structure is unique: three contractors constituted the embassy’s Counternarcotics
        Task Force (CNTF). There were times when the coordination function suffered.
    •   Mobility – Effective CN operations require air assets. U.S. Government-
        controlled air fleets dedicated for exclusive use in CN operations included U.S.-
        made Huey II helicopters and Beech King Air fixed wing airplanes and leased
        Russian-made helicopters and fixed wing aircraft. Matching aircraft to
        operational requirements and interoperability among fleets merit attention. Fleets
        should share support requirements when possible.

The report discusses each of the pillars of the CN strategy in order.
    •   Eradication – The Department of State’s Bureau of International Narcotics and
        Law Enforcement Affairs (INL) fostered creation of a central government-led
        eradication force in 2004, which achieved limited results in 2004-2006. President
        Karzai assigned provincial governors responsibility in 2003-2004 to conduct
        eradication in their own provinces, promising them financial support from the
        central government and international donors. The governor-led efforts eradicated
        six times the acreage of the central government-led force at a significantly lower
        cost in 2006. Embassy Kabul’s tentative eradication goals for 2007 were very



4                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                 UNCLASSIFIED


      optimistic, lacking methodical planning processes to develop eradication plans
      with realistic targets and appropriate resources to achieve them.
  •   Alternative Livelihood Program – The Alternative Livelihood Program is the
      principal ‘carrot’ in the CN arsenal, but there is no evidence indicating a positive
      correlation between alternative livelihood programs (ALP) and reduction in
      poppy cultivation. The policy of linking ALP to eradication creates a perverse
      situation wherein ‘bad performers’ receive ALP. Provinces with no or low poppy
      cultivation implicitly are less favored. Both U.S. Government and Afghan
      officials told IG assessment team members that, indeed, farmers who are not
      involved in poppy have begun to grumble, speculating that growing poppy might
      entitle them to ALP. Many Afghans interpret ALP to imply personal
      compensation for desisting from the opium trade. In fact, many ALP projects
      benefit communities rather than individuals directly. Embassy Kabul proposed
      creation of a Good Performers Fund to reward provinces where there is no-to-low
      poppy cultivation.
  •   Interdiction – Drug Enforcement Administration (DEA) officials acknowledged
      responsibilities for training and mentoring, but pointedly noted that the DEA is
      more focused on interdiction operations. An analysis of DEA personnel resources
      assigned to major illicit drug source locations reveals that proportionately fewer
      personnel are assigned to Afghanistan than elsewhere.
  •   Justice Reform – The U.S. Government is assisting Afghan authorities in
      developing a new Afghan judicial system. The Criminal Division of the
      Department of Justice (DOJ) is sending Assistant U.S. Attorneys (AUSAs) and
      criminal investigators to provide criminal law reform assistance; mentoring and
      training for the group of judges, investigators, and prosecutors who form the
      Criminal Narcotics Tribunal (CNT) and the Criminal Justice Task Force (CJTF);
      and criminal law advice to Embassy Kabul and Afghan officials. The pace at
      which justice reform and training has occurred in Afghanistan has been hindered
      by the speed with which DOJ has deployed personnel to the field. The U.S.
      Government extradited a major drug trafficker under applicable U.N. conventions.
      There is no bilateral U.S.-Afghan extradition treaty.
  •   Public Information – Program coordination of the public information effort is
      lacking. Multiple agencies are involved in publicizing counternarcotics efforts.
      Public attitudes towards CN were greatly influenced by the resurgence of the
      Taliban who actively work to corrupt or intimidate local leaders. The insurgents’
      messages carry more punch than GOA media campaigns. Subsequent campaigns
      should emphasize the negative consequences of involvement in the narcotics trade
      by publicizing eradication and interdiction successes. The Poppy Elimination
      Program contributes to the CN effort and should continue with assistance from
      Provincial Reconstruction Teams.




Interagency Assessment of Afghanistan Counternarcotics Programs                        5
                                  UNCLASSIFIED

        Despite some policy differences, cooperation on CN issues between the U.S.
Government and coalition governments is close and generally productive. A Joint
Narcotics Analysis Center (JNAC) operates in London. Representatives from INL and
the British Foreign Office established the International Operations Coordinating Center
(IOCC) in Kabul through an “implementing directive” signed in 2005. The
implementing directive states that each government will pay for its respective staff, but
assigns no responsibility for other expenses.




6                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                       UNCLASSIFIED



Overview
                              “If we do not destroy poppy, poppy will destroy Afghanistan…”
                                                                     President Hamid Karzai


Background

       CN efforts, including those supported by the U.S. Government, have not
succeeded in stemming the opium and opiates production in Afghanistan.

                        Figure 1. Twenty-year trends in Afghan poppy cultivation1
                             Source: UNODC “Afghanistan Opium Survey 2006”




       In 2006, Afghanistan was the source of about 92 percent of the world’s supply of
raw opium.

    •   Acreage devoted to poppy cultivation in 2006 was approximately 59 percent
        higher than in 2005 (165,000 hectares compared with 104,000 hectares).
    •   The number of Afghans involved in cultivation rose from an estimated 2 million
        in 2005 to 2.9 million in 2006 – about 12.6 percent of the population.2
    •   The United Nations Office of Drugs and Crime (UNODC) estimates Afghanistan
        produced about 6,100 metric tons of raw opium in 2006, up from 4,100 metric
        tons in 2005.3

1
  The sharp drop in 2001 reflected a one-year Taliban-enforced ban on cultivation.
2
  Statistics cited are from the “Afghanistan Opium Survey 2006” issued by the U.N. Office of Drugs and
Crime (UNODC). A December 1, 2006 Office of National Drug Control Policy (ONDCP) press release
put 2006 cultivation at 172,600 hectares, and opium produced at 5,644 metric tons.
3
  Statistics cited for cultivation and opium production are from the “Afghanistan Opium Survey 2006”
issued by the UNODC.


Interagency Assessment of Afghanistan Counternarcotics Programs                                      7
                                       UNCLASSIFIED

    •   Extrapolating from UNODC figures for London, the ‘street value’ of the 2006
        Afghan opium crop (if all were converted to heroin) would be more than $38
        billion.

        Conversion of all the 2006 Afghan opium production to heroin would result in
approximately 700 metric tons of that substance, exceeding world demand.4 The
economic incentives for the poppy industry far outweigh existing disincentives. In 2006,
income generated inside Afghanistan from the narcotics industry represented about 60
percent as much as that from legal economic activities. It is self-evident that there is no
politically feasible way to outspend economic incentives that drive the narcotics trade.

         There were modest countervailing results during 2006. Approximately 15,300
hectares of poppy were eradicated,5 and the quantity of illegal substances seized doubled
over the previous year. The GOA Ministry of Interior admonished a small number of
district officials for defying the central government edicts directing CN activities. One
district governor and his chief of police were summarily removed from their positions,
purportedly for narcotics-related corruption. Over 200 persons were indicted for
narcotics-related offenses (although they were mostly minor players involved in
transporting illegal substances). Convictions for 133 narcotics-related crimes were
handed down and sentences were being carried out.

       Even so, the overall record in 2006 was one in which basic indicators (opiates
produced, processed, and trafficked) moved sharply in the wrong direction.

Whose Problem Is It?

        There is broad agreement that Afghanistan’s production of and trafficking in
opium and opiates is of international concern and importance. Success in countering the
narcotics production and trafficking problem requires cooperation and consensus among
the GOA officials, the international community, and the U.S. Government.
        Afghan officials interviewed for this report emphasized the difficulties in
eliminating the poppy industry. They cited limited law enforcement capacity,
exacerbated by rampant corruption and security-related concerns. They also perceived
that vigorous pursuit of a CN agenda risks social and political upheaval, further
threatening the tenuous ‘reach’ of the central government. Moreover, Afghan officials
pointed to the jobs and income benefits that accrue from the narcotics trade, equivalent to
approximately one-third of Afghanistan’s gross domestic product. Finally, Afghan
officials tend to externalize the problem. In doing so they note that:




4
  The ratio of converting raw Afghan opium to heroin is approximately 8.5:1. ONDCP calculates the 2006
crop would convert to 664 metric tons of heroin.
5
  The UNODC-verified figures show approximately 2,250 hectares eradicated by the Afghan Eradication
Force and approximately 13,050 hectares eradicated via Governor Led Eradication (GLE) efforts. Both
programs receive U.S. Government funding through INL.


8                      Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED


    •   The overwhelming market for opium and opiates is outside Afghanistan, despite a
        disturbing growth in domestic addiction to banned substances.6
    •   Most major traffickers are nonresidents of Afghanistan; hence, beyond the reach
        of GOA law enforcement or judicial processes.
    •   Most of the income generated by the narcotics trade never enters Afghanistan.7
    •   Neighboring governments should assume more responsibility for interdicting
        precursor chemicals used to refine opium.

         Afghanistan’s opium and opiates are distributed and consumed primarily in
Southwest and Central Asia, Western and Eastern Europe, and along the trafficking
routes in between. European Commission officials told IG assessment team members
that their respective governments consider narcotics abuse to be of health or social
concern, not primarily activity of a criminal nature. Their governments seem inclined to
settle for containing the Afghan narcotics problems or reducing them to ‘manageable’
levels. One ranking European military officer summed up this attitude: “I don’t want my
soldiers to die for the sake of a drug addict.”
      There are exceptions to these attitudes. For example, the Iranian government –
confronting one of the world’s highest rates of opium and opiate addiction – has
criminalized use of narcotics and actively seeks to suppress the flow of such substances
from Afghanistan.
        In operational terms, the U.S. Government continues to assume major
responsibility for undertaking CN efforts. The U.S. Government-perceived urgency for
action has to be balanced with the long-term need to build Afghan CN capacity and
determination. When U.S. Government elements fill the breach, their activities ease
pressure on the GOA or other governments to take action.
      The U.S. Government’s significant CN role in Afghanistan is irrespective of the
modest impact of Afghan opium production on the U.S.:
    •   Heroin consumption in the United States ranged between 11 and 14 metric tons
        per year between 1993 and 2000.
    •   Estimates are that only about 5.7 percent of heroin consumed in the United States
        in 2000 was of Southwest Asian (presumably mostly Afghan) origin.




6
 Analysis by the UNODC is that over 900,000 Afghans are addicted to illegal substances.
7
 This underscores the fact that the bulk of revenues stemming from Afghanistan’s poppy culture are
generated outside the country. Although beyond the scope of this interagency assessment, attention should
focus on money-laundering activities. Dubai is a major locus for money laundering related to Afghan
opiates.


Interagency Assessment of Afghanistan Counternarcotics Programs                                      9
                                        UNCLASSIFIED


     •   Although the proportion of heroin entering the U.S. market from Southwest Asia
         appears to be increasing (from an estimated 286.5 kilograms consumption in 1996
         to 759.2 kilograms in 2000), this is miniscule in relation to Afghan production.8

How Important Are Counternarcotics Efforts?

         The Taliban involvement in the narcotics industry, discussed elsewhere in this
report, is a means to an end: usurpation of power. Narcotics provide a formidable
funding source for all forces attempting to undermine the GOA. Without an effective CN
effort, the corrupting influence of the narcotics industry would likely set the stage for
Afghanistan’s reemergence as a safe haven for international terrorist operations.

       One could pose three arguments against continuing U.S. Government CN efforts
in Afghanistan: it is essentially a European problem; the long history of opium
production in Afghanistan will prevail; or successful CN efforts are not an essential
element to achievement of overall U.S. Government objectives in Afghanistan.

        Contrarily, the U.S. Government approach to CN problems is tightly interrelated
with the goal of an independent, democratic, prosperous Afghanistan. Trafficking and
consumption patterns can and have shifted quickly in the past; there is no assurance that
relatively low level American dependence on Afghan-origin opiates will continue. U.S.
Government policy makers demonstrated they are aware of the necessity for a strong
interrelationship among the counternarcotics, rule-of-law/good governance, anti-
corruption, antiterrorist, and security programs in Afghanistan. A holistic approach to
problems is required if the U.S. Government is to succeed in fostering stable, progressive
governance in Afghanistan.

        Given the previously described complexities of the CN program, efforts in
Afghanistan require a long term commitment. This has resource implications. It is
difficult to calculate how much U.S. Government funding might be adequate, how such
monies should be channeled, and how to structure programs that deal both with
immediate (e.g., operational) aspects and those of a longer-term nature (notably capacity
building). The IG assessment team notes that opium production increased dramatically in
2006 over 2005 while U.S. Government funds allocated to CN dropped from about $959
million in FY 2005 to about $480 million in FY 2006. Reduced funding in the face of a
growing problem poses the dilemma of how to match U.S. Government efforts to an
achievable, defined outcome.




8
 Cited statistics are from Estimation of Heroin Availability 1996 – 2000, Office of National Drug Control
Policy, March, 2002.


10                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                       UNCLASSIFIED



Are There Alternatives?

       The IG assessment team notes four possible alternatives in dealing with opium
production in Afghanistan.

    •   Legalize. The Paris-based Senlis Foundation advocates legalization. Senlis’
        basic premise is that there is a global shortage of opiates for production of
        medicines, creating a potential licit market for Afghan opium. No reliable
        independent source supports this Senlis contention. The GOA and U.S.
        Government are among concerned parties who dismiss the Senlis proposal out of
        hand.9
    •   Buy-out. A buy-out proposition is nonviable. The market for opium and opiates
        is very elastic. In 2003, an effort by the United Kingdom Government (UKG) and
        GOA to buy-out poppy production in Helmand Province (a $40 million program)
        failed to produce lasting results.
    •   Ignore. As noted in figure 1 (see p. 8), poppy cultivation has increased on an
        almost-uninterrupted scale over the past 20 years. In the view of the IG
        assessment team, to acquiesce and ignore the problem would be contrary to
        building a competent, honest and self-sustaining Afghan government.
    •   Confront. Involved governments agree that actively combating the problem is the
        only viable option. Incremental progress has been achieved under difficult
        conditions. It would be incorrect or premature to judge CN efforts to have failed.
        However, adjustments are in order. This report identifies ways to improve the
        overall effort.

        The U.S. Government’s five-pillar CN strategy (eradication, alternative
livelihoods, interdiction/law enforcement, justice reform, and public information) is
reasonable and comprehensive. However, it is unclear how this strategy fits in with
broader U.S. Government objectives such as security, good governance, and economic
development in Afghanistan. U.S. Government departments and agencies do not share a
common operational approach to CN issues. The U.S. Government has not used either
‘carrots’ or ‘sticks’ in the most effective manner.

        As the U.S. Government moves ahead on the CN front, there is a need for a closer
match between resources allocated to CN and realistic goals and objectives. There is no
easy solution. There are no panaceas or quick fixes. The U.S. Government must pursue
vigorous, comprehensive, expensive, and long-term CN activities in Afghanistan. The
efforts will be marked by incremental progress and setbacks.



9
  During the course of the IG assessment’s time in Afghanistan, the GOA expelled non-Afghan Senlis
representatives from the country.


Interagency Assessment of Afghanistan Counternarcotics Programs                                      11
                UNCLASSIFIED




12   Interagency Assessment of Afghanistan Counternarcotics Programs
                                       UNCLASSIFIED



The Afghan Dimension
 “Whoever rules Afghanistan, the incentives for misgovernment are nearly irresistible.” 10
                                                                Barnett Rubin, in 2000

        One of the major missing elements to date has been a robust effort on the part of
the government of Afghanistan. The verbal commitment of President Karzai and lead
Afghan officials to the counternarcotics effort outpaces both GOA ability and national
will to act aggressively to combat the narcotics industry in Afghanistan. Since the fall of
the Taliban in 2002, the government of Afghanistan has taken a number of significant
steps to combat narcotics. President Karzai’s government:
             • established the Ministry of Counter Narcotics, headed by a cabinet level
                minister, in December 2004;
             • decreed a comprehensive Counter Narcotics Drug Law in December 2005;
             • published an updated five-year National Drug Control Strategy in January
                2006;
             • prepared detailed implementation plans for all pillars of that strategy for
                final approval in October 2006; and,
             • moved forward in 2006 on a broad-based public information campaign to
                support the strategy.

         These steps helped organize and legally equip Afghan authorities to mount CN
efforts, but greater capacity, political will, and anti-corruption measures are needed.

         Development of an Afghan capacity – human and physical – is a prerequisite for
an effective and sustainable CN program. Decades of fighting ruined almost all Afghan
institutions and prevented development of human capital sorely needed to rebuild those
institutions.

        Efforts to establish, train and equip an effective counternarcotics police for
Afghanistan (CNP-A) are under resourced and incomplete. The judicial system is
generally ineffective, beset by corrupt judges, ill-trained prosecutors, and illiterate
police. Afghan police, prosecutors, and judges continue to debate division of authorities
within the system. Although key Afghan officials wish to see prosecution of significant
cases in country and oppose extradition, the judicial system does not appear strong
enough to survive a major scandal or robust physical attack.




10
  Noted Afghan scholar as quoted by Mark Shaw in Chapter 7, Afghanistan’s Drug Industry: Structure,
Functioning, Dynamics, and Implications for Counter-Narcotics Policy, edited by Doris Buddenberg and
William A. Byrd.



Interagency Assessment of Afghanistan Counternarcotics Programs                                   13
                                    UNCLASSIFIED

         The removal of the Taliban allowed Afghans to elect their country’s first
democratically elected president. However, following parliamentary elections, the
members of the new parliament had limited political experience upon which to draw.
Virtually every aspect of political life in present-day Afghanistan is new. The impact of
nascent institutions is heavily dependent on support of the Afghan populace and the
efforts of dedicated, honest officials. Meanwhile, the insurgency increasingly hinders
efforts to develop and stabilize political life.

        Illiterate farmers relied on traditional cultivation methods that made little or no
use of insecticides or herbicides. This detracted from any rational discussion of the use
of herbicides to destroy poppy. Much of the public simply does not trust Afghan security
forces – the police and army – to protect them from threats from the Taliban or other
persons and organizations involved in the narcotics trade.

        The Afghan Minister for Counternarcotics told IG assessment team members that
income from the poppy culture was so important to the economy of the country that too-
quick action to deal with the problem would risk economic collapse. Given limited tax
receipts, customs revenues, and foreign assistance, the Afghan Finance Minister stated
that the economy cannot afford to lose the strong economic stimulus of the poppy crop in
the near future. These representative points of view suggest the GOA’s reluctance to deal
with CN issues.

       GOA officials whom the assessment team interviewed opined that corruption
permeates all levels of Afghan society – the police, warlords, local and provincial leaders,
and the bureaucracy. For example:
     •   One provincial governor was recently caught with over nine tons of opium in his
         basement. Though removed from that position, he subsequently was elected to be
         a senator in the parliament.
     •   After removal of a senior official in the border guard for corruption, the individual
         defied orders and returned to his post.
       Conditions such as these hamper CN efforts. Provincial governors have relative
autonomy because the central government has limited ability to influence events at the
provincial level. Ethnic and tribal allegiance further complicates the mix. The tendency
has been to revert to time-honored reliance on family and tribal connections. In
numerous interviews with the IG assessment team, corruption at all levels of the Afghan
government ranks second to the security problem.

        However, the recently appointed Afghan attorney general made anti-corruption
his top priority. He asserted to the IG assessment team that the general populace is
frustrated with the current state of affairs and demands action against corrupt individuals.

       There is consensus among foreign and Afghan observers that the narcotics
problem in Afghanistan is a long-term issue. Estimates range from 3 to 5 years to get the
problem “under control,” to 15 to 20 years for achieving a “solution.” There is also a
general view that Afghans will require USG and international support to sustain a


14                     Interagency Assessment of Afghanistan Counternarcotics Programs
                                UNCLASSIFIED


credible CN effort on their own for the foreseeable future. Thus, the international
community must commit to a long haul effort to improve the Afghan dimension. One
senior German police mentor defined the issue clearly: “We must stay. What are the
options?”




Interagency Assessment of Afghanistan Counternarcotics Programs                       15
                UNCLASSIFIED




16   Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED



Cross-cutting Issues
Security

        All aspects of CN programs are hampered by the deteriorating security
environment in Afghanistan – especially in Helmand and other southern provinces with
very high cultivation of poppy. There was a notable increase in suicide bombers and
improvised explosive devices throughout the country -- tactics that in the recent past had
been uncommon. American and International Security Assistance Force (ISAF) military
officials confirmed that the insurgency increased its strength and presence, especially in
the poppy-dense southern provinces.

       During the 2006 spring eradication season, the Afghan Eradication Force (AEF)
repeatedly encountered resistance, particularly in Helmand, Badakshan, and Baghlan
provinces. Since creation of a centrally led eradication force in 2004, nine members of
the AEF were killed and 17 wounded. Resistance included standoff rocket attacks,
sniping, roadside improvised explosive devices, land mines, and hostile crowd incidents.

        The threat of violence and the uncertain availability of in extremis support11
hindered interdiction efforts by the Afghan Narcotics Interdiction Unit (NIU) operating
with and mentored by the DEA. As with eradication, interdiction efforts – e.g., arrest of
suspects, destruction of laboratories, etc. – often depend on force protection provided by
coalition military units. Without assurance of in extremis support, CN missions were
canceled, and NIU attempts to schedule interdiction raids were halted for several months.

        The prospect of violence made delivery of ALP more expensive, as U.S.
Government contractors and direct-hire employees required additional protection. In
May 2005, attacks on ALP teams in Helmand resulted in 11 deaths and a five-month
suspension of work by USAID contractor, Chemonics. Another consequence of
deteriorating security is a significant restriction of where ALP teams can operate. For
example, in Helmand, the largest poppy-producing province in the country, the very
active Taliban presence severely constrains ALP activity.

         The links between the insurgency and the narcotics industry are increasing and
troubling. Delivered anonymously to farmers, insurgent-drafted “night letters” threaten
retaliation for failure to cultivate poppy or cooperation with the GOA. These are more
persuasive than contrary GOA-sponsored public information (PI) messages.

Policy Prioritization

        The U.S. Government’s ‘five-pillar’ CN strategy is consonant with the GOA’s
eight-pillar CN strategy (the GOA’s additional pillars are: institution building; regional

11
 ‘In extremis support’ denotes situations in which elements under attack must be rescued by use of
military assets.


Interagency Assessment of Afghanistan Counternarcotics Programs                                      17
                                        UNCLASSIFIED

cooperation; and demand reduction, prevention, and treatment.) The IG assessment team
found the U.S. Government approach to be reasonable and comprehensive. It is less clear
how the CN agenda ranks among other U.S. objectives in Afghanistan, such as:
counterinsurgency, counterterrorism, good governance, combating corruption, rule-of-
law, and economic development. There is consensus among Washington-based elements,
Embassy Kabul, the Combined Forces Command – Afghanistan (CFC-A), and ISAF that
CN is integral to progress on these other objectives.

        However, differing organizational mandates blur the focus and efforts of some
participants in the CN effort:

     •   CFC-A’s primary missions are counterterrorism and counterinsurgency. The
         command plays a supporting role for CN.12
     •   Under the North Atlantic Treaty Organization (NATO) operations plan, ISAF is
         directly tasked with a CN support role. However, ISAF involvement is contingent
         on resource availability at any point in time, with prioritization defined by the
         ISAF commander.13
     •   USAID has the U.S. Government lead in implementing alternative livelihood
         programs. To a degree, any and all USAID projects could be categorized as ALP.
     •   INL in the Department of State and Embassy Kabul’s INL section are responsible
         for contracting and oversight of police training, as well as coordinating CN
         programs.
     •   The DEA is responsible for training and mentoring the Afghan NIU. Most
         training and mentoring takes place ‘on the job’ while DEA is developing cases
         against traffickers.

        In short, the priority granted to CN and concomitant responsibilities of various
U.S. Government elements is not sufficiently clear and specific. Interlocutors, both in
Washington and Afghanistan, were unable to point to a clear, overarching strategy. Some
cited the “Afghanistan Compact” drawn up in London in early 2006, as the most
authoritative statement of objectives shared among the GOA and coalition governments.
That document categorizes CN as a “cross-cutting priority” – hardly precise enough to
define responsibilities or to inform decisions on allocation of resources.14 The Inter-
Agency Counternarcotics Strategy Group, chaired by the Assistant Secretary of State for
INL, is best positioned to press for clarification of U.S. Government policy priorities.



12
   CJCSI 3710.01A, DOD Counterdrug Support, dated March 30, 2004, prohibits “transportation support in
direct tactical support of the operational portions of ongoing LEA [law enforcement agency] … operations,
or of any activities where CD-related [Counter Drug] hostilities are imminent.” (para. 4.f.4, p A-5)
13
   In late November 2006, ISAF – for its first time – provided aircraft for a DEA operation in Herat.
14
   The Afghanistan Compact, agreed to at London in January 2006 states: “Meeting the threat that the
narcotics industry poses to national, regional and international security as well as the development and
governance of the country and the well-being of Afghans will be a priority for the Government and the
international community…” The Compact also set general benchmarks and timelines – e.g. “By end-2010,
the Government will implement programmes to reduce the demand for narcotics and provide improved
treatment for drug users.”


18                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED


Relevant decisions require agreement at the level of the Deputies’ Committee or the
Principals’ Committee.15

Recommendation 1: The Department of State should take the lead to develop a policy
document specifying the priority of counternarcotics relative to other U.S. objectives in
Afghanistan and, thence, respective roles and responsibilities for pursuing an agreed
counternarcotics strategy for Afghanistan. This document should be referred to the
Deputies’ Committee and, if necessary, Principals’ Committee for approval. (Action:
Department of State/INL, in coordination with members of the Inter-Agency
Counternarcotics Strategy Group)

In their comments to the draft report, INL disagreed, stating that “counternarcotics is
among the top four policy priorities in Afghanistan. Development of a policy document
specifying a numerical priority to each objective would undermine current efforts to
integrate the activities…” The intent of the IG assessment team’s recommendation is not
to develop a priority list, but to establish in writing a top-level policy that will focus
efforts and drive resources among the interrelated priorities across agencies.

       Under the 2002 Bonn Agreement,16 the UKG had the coalition lead in dealing
with CN issues. Although there are some bilateral differences in approach, British and
American policy makers and program implementers collaborate closely. Other NATO
and ISAF member governments contribute to the effort in varying degrees.

        In the complex dimensions of CN efforts in Afghanistan, the gap between
aspirations and accomplishments poses continuing problems. An understandable desire
for measurable ‘outcomes’ results in pressure to establish goals. This, in turn, has
engendered unrealistic expectations, both on the part of Afghans (e.g., some farmers
reportedly expected personal compensation from ALP rather than projects that benefit
communities) and for Washington policy makers and other American officials who
sometimes are quicker to note shortfalls than to recognize accomplishments (e.g., in
eradication or interdiction ‘measurables’). For example, the CN team at Embassy Kabul


15
   In addition to INL, membership in the Inter-Agency Counternarcotics Strategy Group includes the
Counter-Narcotics Center (CNC), the Drug Enforcement Administration, Central Command (CENTCOM),
the Joint Chiefs of Staff, Department of Justice Criminal Division, National Security Agency, Office of
National Drug Control Policy (ONDCP), Department of State’s Bureau of South and Central Asian Affairs
(SCA), Department of the Treasury and USAID. The National Security Council (NSC) chairs the
Deputies’ Committee; appropriate departments are represented at the deputy secretary level; similarly, the
NSC chairs the Principals’ Committee with participation at the Cabinet level.
16
   Under U.N. auspices, Afghan political leaders met in Bonn with representatives of governments that
participated in the coalition that overthrew the Taliban regime. The resulting “Bonn Agreement” set out
the framework for an elected GOA and also defined donor governments that would assume lead
responsibility for security (U.S.), counternarcotics (United Kingdom), police training (Germany), judicial
reform (Italy) and infrastructure development (Japan). The Afghanistan Compact retermed ‘lead nations’
as ‘key partners’ with the GOA as the ‘lead’ for all programs in country. Nonetheless, international
partners informally continue to exercise some primary responsibilities (e.g. the UKG on CN).


Interagency Assessment of Afghanistan Counternarcotics Programs                                       19
                                         UNCLASSIFIED

tentatively has set very high targets for eradication in 2007.17 The IG assessment team
concludes that these goals are unrealistic. (Setting targets for eradication is discussed
further in the ‘Eradication’ section of this report).

Resource Availability/Adequacy

        Since the 2001 coalition liberation of Afghanistan, the U.S. Government has
provided over $10.3 billion in assistance, not counting funding for military operations.18
Of that total, approximately $1.6 billion has been dedicated to CN efforts (see Figure 2).
                                                                                    $926
                             $1,000

                               $800

                               $600
                                                                                                  $420
                               $400
                                                                       $175
                               $200
                                            $38          $42
                                  $0
                                          FY2002        FY2003        FY2004       FY2005        FY2006
       Annual Total                       $37.89        $42.29       $175.35       $925.62       $419.80
       US Agency for International         $9.99        $14.29        $53.55       $344.19       $120.00
       Development
       Department of Justice                $-            $-            $-          $7.65        $17.60
       (DEA)
       Department of Defense                $-            $-          $71.80       $224.50       $108.05
       Department of State                $27.90        $28.00        $50.00       $349.28       $174.15




                      Figure 2. U.S. Government counternarcotics funds allocated to USAID and
                        the Departments of State, Defense and Justice ($ in millions)19




17
   At the time of this assessment, Embassy Kabul’s tentative 2007 goals were to eradicate about 30,000
hectares – almost twice the acreage eradicated in 2006. INL officials state that about 25 percent eradication
of an illicit crop would be necessary to have a real deterrent effect on farmers’ decisions on whether or not
to cultivate such crops. In the case of Afghanistan, that would have entailed eradication of approximately
45,000 hectares in 2006 and (likely) a comparable acreage in 2007.
18
   Summary of U.S. Assistance – London Conference on Afghanistan, Department of State Fact Sheet,
2006/125, February 1, 2006.
19
   By comparison, the UKG expended the equivalent of approximately $127 million in 2005-2006 out of a
budgeted equivalent of $272 million for 2005-2008.


20                        Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED



        Throughout this period, most funding for programs in Afghanistan has come
through Congressional supplemental appropriations. While the supplemental process
provides a mechanism for responding to emergencies, it does not provide budget
continuity. Programs reliant on supplemental appropriations are often subject to uneven
implementation if funding is interrupted or if a fiscal year begins under continuing
resolution. Failure to incorporate programs funded by supplemental appropriations into
annual budgets results in inaccurate baseline figures and complicates planning and
accountability.

       Understandably, funding varies across the five pillars. Figure 3 illustrates the
application of FY 2006 U.S. Government funding across the CN pillars. Departments
and agencies applied more than 60 percent of the funds for FY 2006 to eradication efforts
and ALP. (Note that the amounts shown include funds initially allocated to more than
one department.)


                              Figure 3. FY 2006 U.S. Government funds applied to CN pillars
                                                         (in $ millions)



                                                           Combating Narcotics




                                                                                                                                                      DOS
                    Lead U.S.                                                                                                  DOS/
                     Agency               DOS                          USAID                                   DOJ
                                                                                                                               DOJ
                                                                            ALTERNATIVE LIVELIHOODS




                                                                                                                                LAW ENFORCEMENT AND



                                                                                                                                                      PUBLIC INFORMATION
                                                                                                                                   JUSTICE REFORM
                                                                                                                INTERDICTION
                                           ERADICATION




                   Total Funds
                   (all sources)          $134                             $120                                $109            $55                    $2

                                   SECURITY (Counter-insurgency)                                      GOVERNANCE (Anti-corruption)


        Not all U.S. Government departments and agencies participating in Afghanistan
CN programs have incorporated Afghanistan programs in regular budget requests. The
Department of State and USAID have included budget and performance elements in
planning cycles for Afghanistan, although the numbers developed during those cycles
have not been consistently incorporated into their respective budget submissions. Much
of the funding was allocated to the Department of Defense (DOD). In accordance with
the Economy Act (31 U.S.C. 1535), some of those monies were transferred to INL to use
in CN-related programs. Within the DOJ, DEA funds staffing of its country attaché
office, but prospectively will rely on the GOA for helicopter support. In turn, GOA
aircraft and associated training are funded by DOD. All concerned U.S. Government



Interagency Assessment of Afghanistan Counternarcotics Programs                                                                                                            21
                                       UNCLASSIFIED

elements must address the issue of the long-term costs to support their respective
administrative and operational CN activities.

       The Afghanistan Inter-Agency Operations Group (AIOG)20 in Washington has
begun discussing five-year budget plans to fund U.S. Government programs in
Afghanistan. This is a working process that proposes funding through regular budget
requests that may not always receive ‘full’ funding approval. Consequently, there may
be occasions in which supplemental requests will be required. However, reliance on
supplemental appropriations is contrary to guidance currently provided by the Office of
Management and Budget.

       The five-year approach provides a more realistic timeframe to develop CN
programs and to measure results. As the process continues, it is essential that the
involved agencies develop outcome, not just output, performance measures. Budget
planning should reflect the performance targets and take into account contributions of
other donors, as well as those of the GOA.

Recommendation 2: The Department of State working through the Afghanistan Inter-
Agency Operations Group should prepare a rolling five-year budget and performance
plan for U.S. Government funded counternarcotics programs in Afghanistan. The plan
should include outcome measures to track the effectiveness of these programs. (Action:
Department of State/INL, in coordination with the AIOG)

Recommendation 3: The Afghan Inter-Agency Operations Group should present the
rolling five-year budget and performance plan to participating departments and agencies
for use in budget preparations. (Action: Department of State/INL, in coordination with
the AIOG)

        The size, complexity, and need for expertise and continuity are primary factors
that cause heavy reliance on contractors to carry out many U.S. Government-funded CN
programs. The contracting process often occurred quickly and, as far as the IG
assessment team was able to determine, with minimal input from Embassy Kabul. With
the exception of USAID contracts, many were concluded at a time when there was no in-
country contracting officer's representative or project officer available to review
statements of work. The result was that at least two statements of work, those for
DynCorp support to the Poppy Elimination Program (PEP) and for Hill & Knowlton
(H&K) contracts for the public information pillar, were written in such vague terms that
the current in-country contracting officer's representative, project manager, and the
contractors were uncomfortable with the imprecise reportable outcomes in the contracts.




20
  The Afghanistan Inter-Agency Operations Group was created in August 2003 and is co-chaired by the
Department of State and the National Security Council. Membership includes all federal agencies that have
programs or interests in Afghanistan. Discussions are often conducted on specific issues thereby limiting
the number of attendees.


22                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                         UNCLASSIFIED


Recommendation 4: The Department of State should ensure the in-country contracting
officer’s representative and project officer are involved in developing all future
statements-of-work for counternarcotics related contracts. (Action: Department of
State/INL, in coordination with A/OPE and Embassy Kabul)

Interagency Coordination/Management

        Embassy Kabul's CN organizational structure is unique. At most embassies either
the deputy chief of mission (DCM) or the chief of the narcotics affairs section is in
charge of the CN effort. In Kabul, though, a contractor directed the embassy’s CNTF,
reporting to the Ambassador through the DCM.
         The CNTF director brought strong experience to the job, having worked as a DEA
special agent in the region and having served in a senior position at DEA headquarters.
In October 2006, he began his third year working at Embassy Kabul, which gives him
institutional memory on relevant issues. The CNTF director worked directly with GOA
ministers, senior American and British military officers, and representatives of various
donor entities. The Ambassador had full confidence in the incumbent with whom he and
the DCM met regularly.
        Notwithstanding these contributions, the IG assessment team learned that there
are times when the coordination function suffered.21 The CNTF director was supposed to
chair weekly meetings of the CNTF. In practice, there was only one such meeting from
early September through the beginning of November 2006. The open door style of both
the Ambassador and DCM encouraged direct dialogue – at times without keeping the
CNTF director informed. As a contractor, the CNTF director could not supervise U.S.
direct-hire personnel or directly oversee contracts or contractors, yet those were two of
the most important coordination functions. Finally, the contract for the incumbent was to
expire in the summer of 2007. It appeared that he was not interested in extending his
contract.
         Effective management of the CN mission is a complex task. At the time of this
assessment, only a deputy and a manager of the PEP teams – both contractors – reported
directly to the CNTF director. In contrast, the British Embassy Drug Team (BEDT)
consisted of approximately 20 personnel. DOD, with limited direct responsibility for CN
efforts, had more than 20 staff members working on CN support activities. Although the
embassy’s coordinator worked closely with other CN entities, the overall effort would be
more efficient with additional personnel assigned to perform specific CNTF functions.

        Continuity is an important element in management of the CN programs. The
short-tour assignment of personnel detracts from the continuity. The aspects of
supervision of personnel and oversight of contracts, along with the need for additional
attention to management issues, prompted the IG assessment team to propose an

21
 Other sections of this report cover public information efforts, and an appendix deals with air mobility.
Both areas are examples of efforts that could have proceeded better with more direct coordination or the
more rapid use of the authority of the ambassador to sort out operational questions.


Interagency Assessment of Afghanistan Counternarcotics Programs                                         23
                                             UNCLASSIFIED

expanded functional organization of the CNTF. The IG assessment team concluded that
full-time U.S. Government American employees should fill four positions outlined in
Figure 4. In the view of the IG assessment team, such persons do not have to be from the
Department of State, but could be drawn from any of a number of agencies. However,
Department of State officials stated that existing collective bargaining agreements with
the American Foreign Service Association inhibit recruitment from across the
government.



             Figure 4. Proposed Embassy Kabul organization for CN activities.



                                             U.S. Ambassador
                                             Deputy Chief of Mission
                                                   (Chargé d’Affaires)


                Minister Counselor                      (Coordination)
               for Counter Narcotics                                             Mission Staff
                                                                                   Sections
                                                                                 (INL, DEA, etc.)
                Inter-Govt. and -Agency Coordinator
                (U.S., Afghan, Foreign Govt. issues)

                Public Information Coordinator
                (Campaign planning, Oversight)
                                                                         Counter Narcotics Information
                Logistics Specialist
                (Acquisition, Budget, Contracts)


              Counter Narcotics Requirements




         In the judgment of the IG assessment team, the CNTF director’s position should
be retained. In contemplating departure of the current director, the Ambassador’s
intention was to identify the staff member in country at the time whom he deemed best
able to fill the position. The IG assessment team concludes it would be better to establish
this as a regular – not-contract — position and more precisely define its policy
parameters and management responsibilities. In view of the importance of continuity,
this should be a two-year assignment. Further, the IG assessment team believes that in
order to attract well-qualified senior officers to the position, it should be designated as
“Minister-Counselor for Counternarcotics.” The person in this position would report to
the Ambassador through the DCM.

Recommendation 5: Embassy Kabul should develop a position description for the
Minister-Counselor for Counternarcotics at Embassy Kabul. (Action: Embassy Kabul, in
coordination with Department of State/DGHR and INL)

Recommendation 6: The Department of State should fill the position of Minister-
Counselor for Counternarcotics at Embassy Kabul with an officer at the Minister
Counselor level on the basis of a two-year assignment. (Action: Department of
State/DGHR)



24                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED


        CN efforts undertaken by various U.S. Government departments and agencies are
often dependent on one-on-one conversations or exchanges among a small number of
participants. Decisions are not always agreed by or communicated to all participants.
USAID separately (and apparently with little or no interagency coordination) contracted
Chemonics to publicize ALP projects in the southern region (and planned to have
counterpart contractors in other regions of the country mirror those efforts).

         Intergovernmental communications also need closer attention. The CNTF
interacts with several GOA ministries, foreign governments, and international
organizations. Each of these requires attention by U.S. Government officials, sometimes
in joint sessions, often in one-on-one meetings. The IG assessment team envisions the
Minister-Counselor for Counternarcotics to be the principal point of contact for these
purposes. The IG assessment team recommends assignment of a person designated
specifically to assist the Minister-Counselor for Counternarcotics in ensuring proper
interagency and international coordination.

Recommendation 7: Embassy Kabul should develop a position description for a
coordinator of interagency and intergovernmental counternarcotics issues at Embassy
Kabul. (Action: Embassy Kabul, in coordination with the Department of State/DGHR
and INL)

Recommendation 8: The Department of State should fill the position of coordinator of
interagency and intergovernmental counternarcotics issues at Embassy Kabul with a
qualified officer. (Action: Department of State/DGHR)

        Various entities share responsibility for PI efforts conducted or funded by the U.S.
Government. Within the embassy, the INL section, USAID, the Public Affairs Section,
and the CNTF each have PI roles. Military personnel under CFC-A likewise are
involved. The INL section managed a contract with H&K for overall public information
projects. The CNTF oversaw the PEP campaign. All PI programs should be coordinated
with other affected sections within the embassy, military units, contractors, and the GOA
to achieve a more effective process.

        Ensuring effective PI messaging on CN presents major challenges. At the time of
the assessment, contractors crafted message content in consultation with GOA
authorities. These were cleared with the public affairs officer (PAO) and the INL PI
officer. Surveys indicated that most Afghans realize that poppy cultivation is illegal,
contrary to religious teachings, and poses serious health risks. Contrarily, the public
receives little information about law enforcement or eradication activities. Successes in
eradication and interdiction should be widely publicized. The public needs to know of
actions against corrupt officials and traffickers – especially in cases of removal from
office and/or judicial prosecution.

       It is essential that the various agencies and contractors convey common public
information messages, tailored to the correct audience and properly timed within the


Interagency Assessment of Afghanistan Counternarcotics Programs                         25
                                       UNCLASSIFIED

poppy cultivation season. Those involved in various PI efforts must understand the roles
played by each other PI element. By federal regulation, the contractor presently
managing the PEP could not supervise U.S. Government or other contract employees.22

Recommendation 9: Embassy Kabul should develop a position description for a public
diplomacy officer to organize and oversee counternarcotics public information programs
in Afghanistan. (Action: Embassy Kabul, in coordination with Department of
State/DGHR and INL)

Recommendation 10: The Department of State should assign a qualified officer to
oversee counternarcotics public information programs in Afghanistan. (Action:
Department of State/DGHR)

        The CN effort in Afghanistan suffers from the absence of any system of
centralized records to assess what individual agencies are spending, where funds are
being spent, funds remaining, and what is being accomplished. While each agency or
office attempts to track funding in its area of responsibility, there is no central point to
provide an overall picture. This hampers both the planning of CN programs and the
evaluation of those efforts. There is a similar lack of a single source for information on
acquisition of and accountability for relevant U.S. Government-purchased equipment and
supplies. A persistent theme voiced to the IG assessment team was the need to sort out
competing demands for limited CN resources (e.g., multiple demands for use of the
limited number of aircraft).

Recommendation 11: Embassy Kabul should develop a position description for an
administrative support officer to serve within the Embassy Kabul Counternarcotics Task
Force. (Action: Embassy Kabul, in coordination with the Department of State/DGHR
and INL)

Recommendation 12: The Department of State should assign a qualified officer to serve
within Embassy Kabul’s Counternarcotics Task Force as administrative officer. (Action:
Department of State/DGHR)

In their comments to the draft report, the US Embassy Kabul and INL disagreed, offering
different reasons. US Embassy Kabul stated that the Interagency Resource Cell meets
the requirement, while INL referred to the scheduled deployment of contracting officer’s
representatives in mid 2007. However, the Director of the Interagency Resource Cell
does not report to the CNTF, and personnel in Afghanistan cannot be counted until they
actually arrive. The IG assessment team did not change the recommendation to reflect
concern over providing the CNTF Director with sufficient staff to accomplish the
mission.



22
  Subsequent to field work done for this assessment, a public information officer has been assigned to
Embassy Kabul’s Narcotics Action Section. Depending on the relevant job description, this may constitute
satisfactory compliance with recommendations 9 and 10.


26                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                            UNCLASSIFIED


Mobility

       Travel in Afghanistan is difficult. After 30 years of conflict most roads are in
very poor condition. Overland travel is slow and dangerous. Therefore, most CN
operations require air assets. Two air fleets are dedicated for exclusive use in CN
operations.

       •   INL operates 10 Huey II helicopters in Afghanistan for use in the eradication
           effort. The U.S. Government retains title to these aircraft. INL also leased a
           number of Russian-made helicopters and fixed-wing aircraft.
       •   DEA initially deployed to Afghanistan on an understanding that its air mobility
           would come from CFC-A, either directly or through leased assets. DOD is in the
           process of procuring ten Mi-17 helicopters for exclusive use by the NIU. Those
           helicopters will be turned over to the GOA once they arrive in country.23 DEA
           deployed one fixed wing (King Air) aircraft and planned to add another, but it
           continues to need helicopter support.

        The capabilities of the existing aircraft did not always match operational
requirements. For example, the Huey IIs were unable to operate effectively in some of
the higher elevations in Afghanistan’s poppy producing provinces. Even at lower
elevations, there were tradeoffs between cargo, passengers, and fuel. INL, because of
security concerns, had not been able to preposition fuel in locations close to many of the
proposed eradication zones. None of the INL aircraft had reconnaissance/surveillance
capabilities, so the eradication force often resorted to using hand held digital cameras to
collect field information.

        In terms of airlift, the operational needs of INL and DEA are different. INL's
focus on eradication allows for more long-term planning, whereas DEA's interest in
interdiction requires aircraft availability on a more immediate basis to exploit targets of
opportunity. INL provided some support to DEA over the past 12 months and pledged to
do so in the future, depending on other mission priorities. Both organizations will
continue to require periodic U.S. military or ISAF air support, to include in-extremis
missions.

       While the airlift needs for eradication and interdiction are different, the support
requirements are similar. Securing operations and maintenance support for any aircraft in
Afghanistan is expensive and the pool of qualified vendors limited.


Recommendation 13: The Department of State should lead an interagency assessment
of the Afghanistan counternarcotics air mission requirements, including aircraft types,
quantities, and sustainment. (Action: Department of State/INL, in coordination with the
AIOG)

23
     Appendix B is a case study of the evolution of the air mobility issue.


Interagency Assessment of Afghanistan Counternarcotics Programs                           27
                                  UNCLASSIFIED


        INL, DEA, the United Nations, Afghan Ministry of Defense, DOD, and ISAF
actively sought space at Kabul International Airport. In short, available space at that
airport is tight. Senior U.S. Government officials received conflicting briefings outlining
land use plans at the beginning of 2006. One plan required approval from the Afghan
Ministry of Interior, while the second required sign-off by the Ministry of Transportation.
Also, one plan explicitly provided a parcel of land to both DEA and INL, while the
second plan mentioned neither. The IG assessment team observed first hand the
confusion concerning land use continued at the end of 2006.

Recommendation 14: Embassy Kabul should develop a coordinated list of U.S.
Government requirements for space at Kabul International Airport for use in the
counternarcotics mission and negotiate with the Afghan government for such allocation.
(Action: Embassy Kabul, in coordination with Combined Security Transition Command-
Afghanistan)




28                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                         UNCLASSIFIED



The Five Pillars
Eradication

        Eradication encompasses destruction of opium plants in the fields before farmers
are able to harvest their illicit crops. Thus, the possibility of eradication is a key factor in
the decision of Afghan farmers on whether or not to plant poppy. The five-pillar strategy
involves a carrot and stick approach in which a credible threat of eradication is an
integral component.

        In terms of U.S. Government funding since FY 2001, eradication of Afghanistan’s
poppy crop has been the largest pillar in the CN strategy. In addition, given more readily
measurable outcomes and understandable metrics – e.g., crop surveys, estimates of
opiates processed, and hectares eradicated – this pillar garnered the highest level of
public attention in the media and received close political scrutiny inside government
circles year after year. For some, the pillar’s title conveys the tempting impression of an
easy solution, one in which bold steps, once taken, might solve Afghanistan’s drug
problems. However, in the five years since the fall of the Taliban the size of the
country’s annual poppy crop more than doubled and – with the exception of 2005 –
registered increases every year. In response, the overall Afghan eradication effort was
slow to evolve. Results have been modest and achieving the GOA’s publicly stated goals
for reduction in poppy cultivation is unlikely in the near term.24

        Eradicating Afghanistan’s poppy crop poses formidable challenges not easily
reducible. At ground level, poppy is a low-risk crop in a high-risk environment. There
are few if any other legal crops or commercial activities to which Afghan subsistence
farmers can profitably turn, although the overwhelming majority of farmers cultivate
legal crops. Thus, poppy has come to serve multiple purposes. It is a high return crop
that provides a basis for obtaining credit, is a source of employment for family members,
and holds out prospects of year-round funds sufficient to feed one’s family. UNODC
estimated that, in relation to the 2005-06 poppy season, each hectare of poppy cultivated
created 5.6 related jobs in the rural economy.

       Afghanistan was one of the world’s poorest countries long before the Soviet
invasion.25 Between that invasion in 1979 and the cultivation ban by the Taliban in 2001,
poppy cultivation, processing, and trafficking were the only sectors of the Afghan
economy that flourished.



24
   Afghanistan’s National Drug Control Strategy, as re-issued in January 2006, set a goal of a 70 %
reduction of opium poppy over five years and elimination in 10 years.
25
   According to World Bank statistics, the 2005 per capita income in Afghanistan was $293 – a notable
increase since the fall of the Taliban. However, this contrasts with a 2003 per capita income of $404 in
Haiti.


Interagency Assessment of Afghanistan Counternarcotics Programs                                            29
                                           UNCLASSIFIED

        U.S. Government-funded eradication efforts trace back to late 2003-early 2004,
when preliminary U.S. Government and UNODC surveys began to show a very large
increase in poppy cultivation underway in Afghanistan.26 Under the five-pillar strategy
unveiled in fall 2004, INL focused on the nascent eradication efforts of Afghan
authorities, both of the central government in Kabul and by provincial governors.

        Political pressure is building within the U.S. Government for use of large-scale
aerial application of herbicides in hopes this might bring poppy cultivation effectively
under control. Unfortunately, application of herbicides is not a ‘silver bullet.’ The GOA
– which has the final say – is opposed to this approach, in part reflecting the history of
defoliants applied by the Soviets during occupation of the country. The UKG and other
coalition partners are likewise against aerial spraying of poppy. Some proponents of
spraying argue that most Afghans would not react negatively to use of herbicides since
such a small proportion of the population (about 12 percent) are directly involved in the
narcotics industry. The potential for collateral damage to licit crops, exaggerated health
worries and concern for the environment – all dimensions easily exploitable by traffickers
and insurgents alike – almost certainly would broaden Afghan opposition to use of
herbicides.

         Eradication efforts by the Central Government

        The first U.S. Government/GOA joint eradication efforts took place during the
2003-04 crop season. INL launched a Central Poppy Eradication Force (CPEF) in April
2004. The concept was to deploy the CPEF where governor led eradication (GLE) failed
or when governors requested eradication assistance. CPEF was designed to operate as
one large unit, consisting of nearly 600 Afghan police officers who were to travel in
convoy over Afghanistan’s limited road system. However, after starting late in the
season, the CPEF was only able to eradicate 978 hectares (see figure 5).

        In the following year (2004-05), the CPEF was plagued by its cumbersome size
and organizational structure. Logistical and mechanical problems and unexpectedly
difficult weather conditions slowed and, in
                                                  Figure 5. Hectares of poppy eradicated by planting year.
some cases, prevented the force from
arriving at planned sites. Further                                                    Hectares Eradicated
                                              Planting Year
contributing to the CPEF’s woes were                                  Central Force           Governor Led            Total
delays by the UKG in developing and             2003-2004                  978                                         978
                                                2004-2005                 1100*                    4,000              5,100
delivering targeting packages, the GOA’s        2005-2006                 2,373                    13,100             15,473
unwillingness to address stalling by                 * Includes one-time 890 hectare effort by Afghan National Police
provincial governors, and organized




26
  There is additional historical detail on the evolution of poppy cultivation in Afghanistan in appendix A to
this report.


30                          Interagency Assessment of Afghanistan Counternarcotics Programs
                                          UNCLASSIFIED


resistance to eradication.27 As a result, the CPEF’s eradication numbers dropped to a
scant 213 hectares. The Afghan National Police (ANP) augmented that number with an
unverified one-time eradication effort that they claimed eliminated 890 hectares.28 The
total reported crop eradication by the central government for that season totaled 1,100
hectares – one percent of the 2005 crop.

        Later in 2005, those low numbers prompted a major review and reorganization of
the CPEF. First, its name changed to the AEF. Then, reorganization and training
transformed it into four smaller mobile teams of up to 150 officers each. Half of each
team was to provide security and logistics support, while the other half served as
eradicators.

       Air mobility, a new component, was to enable AEF teams to deploy with the
necessary logistical support to different parts of the country simultaneously. Russian-
made helicopters and a fixed wing aircraft became available under a lease arrangement,
providing “lift” necessary to establish base camps and deploy troops and cargo quickly.
The U.S. Government retained title to the INL-purchased Huey II helicopters provided to
conduct reconnaissance, force protection, search and rescue, and medical evacuations.
During the harvest season, the reorganized force conducted timely deployments to
Helmand, Badakshan, and Baghlan provinces.

        INL reported that over 50 percent of the time that the AEF teams were deployed
on the ground was “downtime.” That was because of coordination procedures among
Afghan officials in Kabul, delays by the BEDT in granting final approval to targeting
packages, intentional stalling by governors, and deliberate sidetracking by local police
units assigned to guide eradication teams to fields.

       Nevertheless, in 2005-06, the AEF reported – and UNODC verified – that it had
managed to eradicate 2,373 hectares. This was an impressive 11-fold increase over 2005,
but only amounted to a third of the AEF’s official target of 7,000 hectares. Equally
important, the AEF proved the value of Afghan mobile teams conducting multiple
eradication efforts simultaneously in different locations throughout the country.29


27
    Targeting packages are the body of information that eradicators put together when planning a mission.
They typically include maps, photos, and geographic positioning system coordinates of illicit crops. In
Afghanistan, the process of assembling and then approving targeting packages also includes a review by
the UKG, the designated coalition lead on CN. That review, conducted by the BEDT, employs a list of
some fifteen criteria that take into account factors that shape the ability of farmers to switch from poppy
cultivation to alternative legal commercial activity (e.g., existence of roads, irrigation, markets, and micro-
finance).
28
   UNODC reported, however, that it was not able to verify that ANP claim.
29
   2006 also saw precedent setting military/civilian cooperation in eradication. In March-April 2006,
CFC-A orchestrated ‘Operation Riverdance,’ bringing elements of the Afghan army and police together as
a joint security force during counterinsurgency operations in Helmand province. The operation included a
self-contained AEF team, operating 28 tractors that conducted eradication operations in southern district of
Helmand. The ANP provided an inner ring of security and the Afghan army established outer ring security.


Interagency Assessment of Afghanistan Counternarcotics Programs                                           31
                                       UNCLASSIFIED

        Governor Led Eradication Efforts

       Meanwhile, the eradication efforts of provincial governors were more successful.
In 2003-04, President Karzai had assigned the governors responsibility to conduct
eradication in their own provinces, promising them financial support from the central
government and international donors. In the 2004-05 crop year, almost 4,000 hectares
were destroyed through GLE efforts, a figure reported and verified by UNODC. As such,
the GLE number was nearly four times what the central government had achieved during
the same period.

         In light of promising GLE numbers, INL took two additional actions to assist the
governors. First, INL reimbursed the governors for their expenses at a rate of $60 per
hectare of UNODC-verified eradication.30 Second, INL underwrote the costs of the PEP
teams (discussed under the public information pillar). At the conclusion of the 2006
spring harvest, the governors of 19 provinces reported – and UNODC verified – a total of
13,100 hectares eradicated, more than triple the level of the preceding year. This
contrasted with 2,373 hectares eradicated by the AEF. Moreover, GLE efforts had the
added advantages of bolstering local counternarcotics capacities and strengthening
district and provincial local governance. However, GLE efforts required a relatively
permissive security environment, whereas the AEF anticipated the possibility of active
hostility.

        GLE also posed a number of verification challenges and manipulation problems.
According to UNODC, its on-site surveyors found that on average only a little more than
half of the area for which the governors claimed credit could be verified as actually
having been eradicated. (UNODC estimates include figures only for acreage verified to
have been eradicated by GLE.) To address this concern in the 2007 harvest season, INL
will embed UNODC verifiers directly into GLE units, to ensure accuracy in reporting.

        Further, the UNODC reported that in 2006, on average two-thirds of the
cultivated poppy area in each village was left standing after GLE teams carried out their
activities. This seemed to confirm third-party reports that GLE eradication teams may
have negotiated deals with local authorities on where and how much eradication would
take place.31 There was also evidence of “early lancing,” the partial harvesting that takes
place when farmers anticipating eradication prematurely extract part of the latex from the
pods in a field.32 UNODC surveyors only credited areas in which eradication activities
resulted in complete or near complete loss of the opium harvest, and only fields where the
harvest had not yet started.33



30
   The requirement for UNODC verification was critical to ensuring accurate record keeping and the GLE’s
cost effectiveness.
31
   p. 56, UNODC’s “Afghanistan Opium Survey 2006”.
32
   Normal practice is to ‘lance’ poppies several times during the harvest season in order to maximize the
amount of gum extracted. Although eradication during any part of the harvest cycle is worthwhile, the
objective is to do so as early as possible, preferably before the first lancing.
33
   p. 57, UNODC’s “Afghanistan Opium Survey 2006”.


32                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED


        GLE eradication was far cheaper than that done by the AEF, although cost
comparisons might be misleading. In FY 2006, INL received $104 million to support the
AEF, plus an additional $124 million for air mobility assets. A large portion of those
funds went to training and a one-time acquisition of equipment. However, simple
division shows that the AEF’s eradication costs would be more than $50,000 per hectare
without aviation support (and as much as $92,000 per hectare with aviation expenses
fully included). Meanwhile, during the 2006 harvest season, INL continued to reimburse
the governors for poppy eradiation at a rate of $60 for each hectare of poppy that
UNODC surveying teams verified as having been eradicated.

        Both GLE and AEF efforts are critical to the eradication program. However, a
comparative study of the costs of AEF and GLE eradication, along with analyses relative
to optimal mixes of the two, would be useful both to the interagency community and
eradication program managers in the field.

Recommendation 15: The Department of State, through the U.S. section of the
intergovernmental Counternarcotics Strategy Group, should request that the Joint
Narcotics Analysis Center in London analyze the cost-benefit ratios of central
government-led eradication and governor-led eradication in Afghanistan. (Action:
Department of State/INL, in coordination with members of the Counternarcotics Strategy
Group)

In their comments to the draft report, the US Embassy Kabul, INL, and the Deputy Under
Secretary of Defense for Counter Narcotics all agreed with the need for the analysis, but
stated the JNAC was not the appropriate organization to conduct the analysis. The IG
assessment team defers to State/INL for final action.

        The Path Ahead

         While the IG assessment team was in Afghanistan, officers at Embassy Kabul
were discussing 2007 eradication goals of more than 30,000 hectares. Those figures were
still tentative at the time this report was drafted, and the Washington interagency
community had yet to receive and approve a comprehensive eradication plan for the 2007
season. Planning was premised on some application of herbicides through ground-based
spraying (GBS). Concurrently, President Karzai insisted that there be consensus
approval among other governments and international institutions involved in CN; British
support was critical. At the time of the assessment, the UKG had not formally concurred
in the proposal to incorporate ground application of herbicides, a proposal endorsed in
principle by President Karzai.34 The debate about potential use of herbicides took on
added importance in light of UNODC’s annual surveys of poppy farmers’ intentions that
pointed to poppy cultivation in 2007 equal to or perhaps exceeding that of 2006.35

34
   Subsequent to this assessment the UKG agreed to limited GBS in select areas of Afghanistan, notably to
exclude Helmand province.
35
   On January 21, 2007, President Karzai decided against any spray program during 2007. This reflected
the Afghan cabinet’s near-unanimous opposition to use of herbicides.


Interagency Assessment of Afghanistan Counternarcotics Programs                                       33
                                   UNCLASSIFIED


         INL officials in Washington pointed out that eradication efforts had taken out the
equivalent of one percent of the Afghan crop in 2004, almost five percent in 2005, and
over eight percent in 2006. They expressed confidence in an ability to push those
percentages higher in 2007 and following years. At the same time, they told the IG
assessment team that earlier UNODC studies show that 25 percent is a critical tipping
point in successful eradication campaigns elsewhere in the world. The studies indicate
that when farmers calculate the risk of eradication at that level, they may elect not to
plant illicit crops. By these measures, the 2006 ‘breakpoint’ target for eradication in
Afghanistan would have been more than 40,000 hectares.

       INL/Kabul program managers were in a quandary in attempting to set achievable
goals for eradication. Setting very ambitious goals would arouse high expectations and
might later prompt charges of failure. If more modest, more realizable goals were set,
there may be criticism for being timid. In that context, INL/Kabul outlined for the IG
assessment team the elements of a basic plan for the 2006-07 season consisting of three
“prongs”:

       1. Increasing from six to 14 the number of poppy-free provinces in Afghanistan.

       2. Sustaining the sizeable poppy reductions previously achieved in five
          provinces, by setting specific targets and holding provincial authorities
          responsible for meeting those targets.

       3. Reducing cultivation in Helmand province by 20,000 hectares (equivalent to
          nearly 30 percent of the province’s crop in 2006) through dissuasion and/or
          eradication.

        Elements of this plan were problematic. For example, the Helmand prong would
require the AEF to eradicate mechanically some 7,000 hectares in the province. To do
so, the force would need to operate without political constraints and in an essentially
permissive security environment. Ground-based spraying might eliminate an additional
3,000-5,000 hectares. GLE in the province presumably would need to account for the
remainder, somewhere between 8,000-3,000 hectares – up from 3,000 hectares the year
before. There have been only modest increases in eradication capabilities since the last
harvest season. Indications are that there will be a significant increase in cultivation in
Nangahar (the ‘poster child’ for previous CN success). In light of such factors, the IG
assessment team concluded that initial plans for 2007 eradication were unrealistic.

       The difficulties in planning for eradication during the 2006-07 crop season were
not new. They stemmed from several recurring factors:
            •   annual U.S. and U.N crop estimates are not released until late in the fall
                of each year;
            •   complex shifting crop patterns as poppy cultivation mushroomed in
                Afghanistan;



34                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                       UNCLASSIFIED


             •    higher eradication targets as Afghanistan’s poppy cultivation expands;
             •    resource levels have not kept up with the need to support larger
                  eradication campaigns;
             •    uncertainty about the use of new methods of eradication such as ground-
                  based spraying;36
             •    reliance on AEF versus GLE;
             •    difficulties anticipating the security situation in target areas;
             •   airlift capacity (e.g., availability, passenger vs. cargo lift requirements,
                 pre-positioning fuel supplies, competing demands for interdiction, etc.)
       Earlier and more methodical planning processes should result in eradication plans
with realistic targets and appropriate resources to achieve them.

Recommendation 16: The Department of State should develop a regular process to
prepare and present a detailed annual Afghan poppy eradication plan by October of each
year for implementation in the following harvest season. This plan should be shared with
all U.S. agencies involved in counternarcotics programs in Afghanistan. (Action:
Department of State/INL, in coordination with Embassy Kabul)

Alternative Livelihoods

        Conceptually, the goal of the alternative livelihood pillar is to discourage
poppy cultivation by providing different, licit economic activities. The term ‘“ALP’”
is frequently misleading. Many Afghans interpret ALP to imply personal
compensation for desisting from the opium trade. The ALP focused on projects to
benefit communities and on cash-for-work programs. Examples include road
construction and restoration of irrigation systems. At Embassy Kabul and in
conversation with GOA officials, there was consensus that a more correct
characterization would be ‘rural development’ or ‘economic development.’

        Within the U.S. Government, ALP is the responsibility of USAID. USAID’s
strategy seeks to develop a private sector-led economy that will increase incomes and
reduce poppy cultivation. USAID allocated $141.3 million in FY 2006 to offset
cultivation in nine principal poppy producing provinces. Development projects
included building primary and secondary roads and repairing power supply, water and
sanitation systems. Cash-for-work projects were intended to mitigate the loss of
income from farmers’ choosing not to cultivate poppy or from experiencing
eradication. USAID predicted that by the end of FY 2007, ALP, in conjunction with
other U.S. Government-funded CN programs, should reduce poppy production by 30


36
  Embassy Kabul reporting subsequent to the IG assessment team’s departure from Afghanistan indicated
that GBS is less promising than hoped for. Field tests revealed a number of problems with the equipment
that resulted in taking longer to spray each hectare of poppy than would be the case with manual
eradication (about 75 minutes per hectare as opposed to about 12 minutes using manual eradication).


Interagency Assessment of Afghanistan Counternarcotics Programs                                     35
                                          UNCLASSIFIED

percent from 2005 levels. In light of 2006 statistics and UNODC estimates of poppy
cultivation in 2007, the IG assessment team believes this goal cannot be achieved.

        The ALP and eradication efforts are conceived to be mutually coordinated and
reinforcing. ALP is the principal ‘carrot’ in the CN arsenal, but there is little
evidence indicating a positive correlation between ALP and reduction in poppy
cultivation (see figure 6). Instead, ALP allocations in Helmand were roughly $4.5
million in FY 2005 and $13.5 million in FY 2006, while poppy cultivation in that
province registered 26,500 hectares in 2005 and 69,324 hectares in 2006. On the
other hand, cultivation in Nangahar dropped sharply in 2004 – the year before ALP
was initiated. USAID officials acknowledge that the primary factor in that drop in
Nangahar cultivation was strong leadership from the then-governor. Subsequently,
ALP for Nangahar went to $2.5 million in FY 2005 and $13.6 million in FY 2006.
Poppy cultivation in the province then rose to 1,093 hectares in 2005 and then 4,872
hectares in 2006.37 Contrary to the popular thesis of a poverty-poppy correlation, a
2006 UNODC study concluded that there is no direct relationship between cultivation
and poverty. In fact, Helmand and Nangahar – historically among the top poppy
cultivation provinces – are among the more prosperous areas in Afghanistan and
places where alternatives to poppy-generated income already exist.
       Figure 6. Relationship between ALP funding and poppy cultivation for selected provinces.

                                   FY 2005                                  FY 2006
                      ALP Funding       Poppy Cultivation     ALP Funding        Poppy Cultivation
     Province
                      ($ in millions)      (in hectares)       ($ in millions)      (in hectares)

                                                                   $13.5               69,324
      Helmand              $4.5               26,500
                                                                 (+200%)              (+160%)

                                                                   $13.6                4,872
     Nangahar              $2.5               1,093
                                                                 (+444%)              (+346%)

       The policy of linking ALP to eradication often creates a perverse situation
wherein areas that are ‘bad performers’ receive additional development funds in the
form of ALP. Provinces with no or low poppy cultivation implicitly receive fewer or
no benefits. Both U.S. Government and Afghan officials told IG assessment team
members that, indeed, farmers who are not involved in poppy have begun to grumble,
speculating that their growing poppy might improve their prospects for obtaining
ALP. Nonetheless, USAID/Kabul’s plans are to allocate all FY 2007 ALP funds to
nine provinces with high poppy cultivation. The GOA, UKG, and other CN players
endorse this approach.

       During this assessment, Embassy Kabul proposed creation of a Good
Performers Fund (GPF). The concept was then approved in Washington in December
2006. However, prospective FY 2007 funding for the GPF is about $23 million, a
very small fraction of the approximate $375 million in ALP funds already allotted.
The GPF proposal would reward provinces where there is no-to-low poppy

37
     Figures provided by Embassy Kabul. Obligation of ALP funds lags the crop cycle by about one year.


36                         Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED


cultivation. Provincial governors in those areas must commit to discourage poppy
production and at least maintain the status quo in terms of cultivation. With such
elements in place, the provincial governor annually could propose development
projects costing up to $500,000. If approved by overseers for the intergovernmental
Counternarcotics Trust Fund, the costs of such projects would be defrayed by the
GPF.

        The IG assessment team noted that the GPF proposal also provided that a 50
percent reduction in cultivation in a high poppy-producing province would qualify the
provincial government to apply for GPF funding. Under this formulation, cultivation
in Helmand of about 35,000 hectares – an effective 50 percent decrease from 2006
levels – would rank the province as a ‘good performer’ eligible for GPF.

        In essence, ALP and GPF are both subsets of the U.S. Government’s
economic assistance efforts in Afghanistan. The IG assessment team concluded that
the GPF proposal held promise to make U.S. Government use of both the ‘carrots’
and ‘sticks’ in the CN programs more effective, but only if GPF were significantly
increased and widely publicized such that the incentive provided to nonproducing
areas is noticed by poppy growers.

Recommendation 17: Embassy Kabul, in consultation with the Bureau of
International Narcotics and Law Enforcement Affairs, the U.S. Agency for
International Development, the Government of Afghanistan, and other
counternarcotics partners, should consider whether providing alternative livelihood
program funding to provinces with zero or low poppy cultivation would increase the
overall elimination of poppy cultivation (Action: Embassy Kabul, in coordination
with Department of State/INL, USAID, GOA, and other CN partners)

Recommendation 18: Embassy Kabul, in consultation with the Bureau of
International Narcotics and Law Enforcement Affairs, the U.S. Agency for
International Development, the Government of Afghanistan, and other
counternarcotics partners, should consider increasing the funding for the Good
Performers Fund so as to maximize overall reduction of poppy cultivation. (Action:
Embassy Kabul, in consultation with Department of State/INL, USAID, GOA, and
other CN partners)

Interdiction/Law Enforcement

        Interdiction encompasses efforts to destroy drug labs, seize precursor chemicals
and opiates, and arrest major traffickers. For the U.S. Government, DEA is responsible
for direct action and for training and mentoring the Afghan NIU within the CNP-A.
Although Germany had the Bonn Agreement lead for training the ANP, the U.S.




Interagency Assessment of Afghanistan Counternarcotics Programs                         37
                                       UNCLASSIFIED

Government provides most of the resources to train and equip that force.38 The bulk of
that funding initially is allocated to DOD. DOD then transfers funds to INL, which is
responsible for program implementation relative to law enforcement capacity-building.

         After coalition forces removed the Taliban from power, DEA reopened its Kabul
office in 2002. In October 2006, with support from the Departments of State and
Defense, DEA prepared a five-year plan entitled: “Strategic Concept for the Development
of the Counter Narcotics Police – Afghanistan and Associated DEA Programs.” The plan
sought to address deficiencies in the CNP-A and to build additional Afghan CN capacity.
It outlined an estimated first year cost of $153 million for construction of facilities and
acquisition of equipment for the CNP-A, followed by out-year costs of approximately
$45 million per year.

        According to the five-year plan, the goals of the DEA in Afghanistan are to: (1)
train, advise, and mentor the CNP-A so that it becomes a sustainable and effective CN
unit capable of conducting operations; (2) develop the capacity of the DEA’s Afghan
counterparts to gather and exchange intelligence in a secure manner with foreign law
enforcement entities; (3) in conjunction with coalition partners, deter narcotics trafficking
through the prosecution of those involved with drug trafficking organizations in the most
appropriate judicial venue available; and (4) reduce the availability of illicit opiates in the
region.

         In conversations with the IG assessment team, DEA officials acknowledged
responsibilities for training and mentoring, but pointedly noted that the DEA focuses on
interdiction operations. Further, DEA dedicated limited resources to the training of
Afghan forces. As of November 2006, DEA had allocated 16 authorized positions to its
Kabul country office – including eight special agents, three intelligence analysts, three
pilots, and two administrative positions (see figure 7). Five of the eight special agent
positions had full-time assignments to mentor and train the NIU.

        In addition, the DEA dedicated 34 temporary duty positions to Foreign Advisory
Support Teams (FAST) in Afghanistan. The FAST program conducted investigations
with the NIU to identify, target, and disrupt major drug trafficking organizations.39
During these operations, FAST personnel also mentored and trained the NIU in an effort
to promote self-sustaining Afghan CN law enforcement. Five FAST teams worked in
Afghanistan. Each generally consisted of a team leader, four special agents, and one
intelligence research specialist. Two teams at a time rotated into Afghanistan every 120



38
   See “Interagency Assessment of Afghanistan Police Training and Readiness” issued by the Inspectors
General of State and DOD, November, 2006.
39
   High-level DEA targets are known as primary target organizations (PTO). As of September 2006, DEA
identified 13 PTOs based in Afghanistan. DEA reported having disrupted three and dismantled two of the
organizations. DOJ defines “disrupt” as impeding normal and effective operation of a targeted
organizations, as indicated by changes in the organization’s leadership, trafficking patterns, and drug
production methods. “Dismantle” is defined as destroying the organization’s leadership, financial base,
and supply network so that the organization is incapable of operating and/or reconstituting itself.


38                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                                                       UNCLASSIFIED


days.40 Meanwhile, the teams that were back in the U.S. assisted the deployed teams by
keeping track of the cases being worked in the field.

        An analysis of DEA personnel resources assigned to major illicit drug source
locations reveals that proportionally fewer personnel are assigned to Afghanistan than
elsewhere (see Figure 7). Colombia produced a majority of the world’s supply of cocaine
and received the largest of DEA international personnel resources. In contrast,
Afghanistan produced most of the world’s opium/heroin yet with a minimal allocation of
DEA personnel. Even if adjusted to include the FAST personnel (two teams at any
particular point in time), the highest number of DEA Special Agents in country was 18.
                                        Figure 7. Analysis of DEA Special Agent distribution and drug cultivation.
                                            Source: U.S. DEA and United Nations Office of Drugs and Crime
                                                DEA Special Agents 2006 Authorized Positions
                                                     to Major Drug Source Locations41
                                         80



                                         70
                                                                                                                        Represents
                                                                                                                        maximum number
             Number of Special Agents




                                         60
                                                                                                                        of FAST members
                                         50                                                                             assigned in country
                                                                                                                        at any given time.
                                         40
                                                    75
                                         30                                       62

                                         20
                                                                                              32
                                                                                                                              10
                                         10

                                                                                                                              8
                                          0
                                                 Colombia                     Mexico    Golden Triangle              Afghanistan



        2005 World Coca Cultivation                                                    2005 World Poppy Cultivation


                                                            Peru 30%
                                                                                                           Myanmar
                                                                                                             22%


                                                     Bolivia 16%                                               Re st of the
                                                                                                               World 10%
                                                                                             Afghanistan
                                                                       Colombia
                                                                                                68%
                                                                         54%




       DEA anticipated increasing its mentoring and training efforts with the creation of
a dedicated training team that would rotate in and out of Afghanistan. However, at the

40
   The FAST teams had DOD contracted support staff of two medics, two communication specialists, one
logistics expert, and two intelligence officers who were available to augment teams when they deployed to
Afghanistan.
41
   The Golden Triangle includes the following countries (assigned agents): Burma (3), Laos (2), Thailand
(25), and Vietnam (2). Afghanistan poppy cultivation has increased in 2006 and now represents 82% of the
world’s supply of poppy cultivated.


Interagency Assessment of Afghanistan Counternarcotics Programs                                                                          39
                                         UNCLASSIFIED

time of this assessment’s preparation, this initiative was still in the planning stages and no
personnel had been assigned. The DEA also planned to create a sensitive investigative
unit within the national interdiction unit of the CNP-A.42 Neither of these initiatives
offered an immediate solution to DEA’s personnel challenges in Afghanistan. DEA
faced fundamental problems training a CN police force drawn from a generally illiterate
and uneducated population. Since bolstering Afghanistan law enforcement capacity is an
important U.S. Government goal, the DEA should dedicate more personnel assets to CN
training.

Recommendation 19: The Department of Justice should evaluate the number of agents
assigned to Afghanistan and attempt to assure adequate resources to accomplish
counternarcotics objectives, including mentoring. (Action: Department of Justice/DEA,
in coordination with Embassy Kabul)

Justice Reform

         The objective of the justice reform pillar is to strengthen the GOA’s capacity to
arrest, prosecute, and punish narcotics traffickers and corrupt officials. While Italy had
the Bonn Agreement lead for this sector, the U.S. Government has become the
predominant player in judicial reform as related to counternarcotics.

       In December 2005, President Karzai issued a special decree enacting a
comprehensive CN law. Drafted mainly with DOJ assistance, the law enables Afghan
law enforcement agencies to use modern investigative techniques (such as wiretaps,
undercover operations, and plea bargaining) to disrupt and dismantle drug trafficking
organizations.43 The new law created the CNT with exclusive, nationwide jurisdiction
over any cases involving seizure of two or more kilograms of opium/opiates or ten or
more kilograms of hashish comes under the jurisdiction of this court in Kabul. However,
as of November 2006, the CNT’s focus in prosecutions was only on “small fish,” such as
individuals caught transporting illegal substances. Many observers contend that the
ultimate success of the CN tribunal concept depends on successful prosecution and in-
country incarceration of major traffickers.

        The U.S. Government is assisting Afghan authorities in developing a modern
Afghan judicial system. The Criminal Division of DOJ sends AUSAs to Afghanistan to
provide mentoring and training for the group of judges, investigators, and prosecutors
who form the CNT and the CJTF. The CJTF includes the Afghan judges and prosecutors
of the CNT. The judges, prosecutors, and international mentors are vetted to ensure the
integrity of the task force. According to the AUSAs who train the CJTF, as of September
2006, the CN Tribunal had achieved convictions in 133 cases.

42
   A sensitive investigative unit is a vetted foreign law enforcement unit. The DEA screens these
individuals with a polygraph exam, urinalysis test, and a background investigation. The individuals
assigned to this unit attend law enforcement training at the DEA training academy. Ultimately, Congress
must approve the creation of an SIU.
43
   The law was issued by presidential decree shortly before the elected parliament took office. At the time
of this assessment, some members of parliament were pressing for revision of the law.


40                        Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED



        The pace of justice reform and training in Afghanistan is hindered by the speed
with which DOJ has deployed personnel to the field. The Criminal Division of DOJ has
allocated four AUSA positions, funded by INL and approved through the NSDD-38
process, for the CJTF and plans to add more. As of November 2006, DOJ had only two
of the AUSA positions filled and one of the AUSAs in country was working full-time
mentoring the new Afghan Attorney General. That left one AUSA and one law
enforcement contractor to mentor the 12 Afghan judges and 35 prosecutors in the CJTF.

Recommendation 20: The Department of Justice should take steps to expedite
assignment of Assistant U.S. Attorneys to the Criminal Justice Task Force in
Afghanistan. To help ensure continuity, the assistant U.S. attorney’s assignments should
be at least one year in duration. (Action: Department of Justice Criminal Division, in
coordination with Embassy Kabul)

        Concern about corruption was the primary motivation for processing all narcotics-
related crimes that occur in Afghanistan to the Central Narcotics Tribunal in Kabul. But
potential violence against judges and prosecutors is another factor hampering delivery of
justice. Afghan judges and prosecutors have expressed reluctance to try cases of large-
scale drug traffickers due to concerns for their personal safety and that of their families.

         The DOJ’s U.S. Marshals Service (USMS) is the U.S. federal law enforcement
agency charged with providing security in the U.S. for federal judges, court rooms, and
witnesses. While the USMS does not have an office in Afghanistan, DOJ has requested
that USMS provide assistance and expertise to the CN Tribunal. The USMS is planning
to start training an Afghan Marshals Service in country in FY 2007.

        Using DOD supplemental funding, USMS is reviewing security arrangements for
judges, prosecutors, and witnesses. The USMS has already identified serious physical
security weaknesses in the new CN Tribunal compound, which construction contractors
plan to correct. The IG assessment team concluded that security of the judges and
prosecutors will substantially improve once work on the new compound is complete. In
addition, the Afghan Marshals Service will provide personal security for judges and
prosecutors going to and from their homes and while in the courtroom.

        The United States and Afghanistan do not have a bilateral extradition treaty.
However, pursuant to the United Nations Convention against Illicit Traffic in Narcotic
Drugs and Psychotropic Substances, the U.S. Government obtained Afghan agreement to
extradite a major indicted drug trafficker. In addition, a new provision of law, the U.S.
Patriot Improvement and Reauthorization Act of 2005 amending 21 U.S.C. §959, allows
U.S. Government law enforcement entities to obtain indictments on Drug Trafficking
Organizations whose illicit proceeds are shown to be funding terrorist organizations.44


44
     Public Law 109-177, Section 122.


Interagency Assessment of Afghanistan Counternarcotics Programs                         41
                                        UNCLASSIFIED

Public Information

        The public information pillar has two objectives: (1) to persuade the Afghan
public that poppy cultivation and trafficking are bad for the country; and (2) to convince
those directly involved in the poppy trade to abandon it.

        The resurgence of the Taliban and traditional suspicion of foreigners greatly
influenced attitudes towards CN issues. The Taliban and the traffickers are in direct and
frequent contact with their target audience, speak the local language, share the local
mindset, and actively work to corrupt or co-opt district and tribal leaders. Insurgents’
“night letters,” conveying the basic message of “plant poppy or we will kill you and your
family,” carry more punch than GOA media campaigns. The security situation makes it
dangerous, if not impossible, for non-Afghan personnel to communicate directly with
Afghan farmers and local leaders. It is within this difficult context that the PI campaign
takes place.

        At the time of this assessment, the PAO represented the embassy at the weekly
meeting of the Strategic Communications Working Group (for counternarcotics), chaired
by the Afghan Minister of Education.45 Apart from this activity, the PAO devoted most of
her attention to developing and managing a range of cultural and media programs, many
unrelated to counternarcotics. The IG assessment team concludes that the person within
the CNTF assigned specifically to focus on CN PI issues would be a more appropriate
person to represent Embassy Kabul at the Strategic Communications Working Group
meetings.

Recommendation 21: Embassy Kabul should transfer the Public Affairs Officer's
external coordinating functions relative to counternarcotics to the public information
officer assigned to the Counternarcotics Task Force specifically to work on
counternarcotics issues. (Action: Embassy Kabul)

        At the time of this assessment, the U.S. Government was pressing for eradication
using ground-based spraying, a politically sensitive issue. By consensus, any
implementation of GBS should be preceded by an intensive PI campaign to assuage
concerns about side effects and possible collateral damage. However, no such campaign
had been devised even though it was hoped that GBS might be used in the 2007 crop
year.46

       More attention should focus on timing of PI campaigns. For example, by late fall,
poppy has already been planted; it is then too late to convince farmers not to sow the crop
and PI attention should shift to focus on eradication. A forward-looking PI campaign
plan should address such issues.

45
   Other participants include representatives from the United Nations Assistance Mission – Afghanistan
(UNAMA), ISAF, CFC-A, the British and Canadian embassies and other Afghan ministries.
46
   Nonetheless, IG assessment team members attended shuras in Badakshan and Ghor at which Deputy
Minister of Interior for CN, General Daud, warned attendees that ground based spraying (GBS) – and
eventually aerial spraying – well might eventuate.


42                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED




Recommendation 22: Embassy Kabul should develop an annual public information
plan that would address issues such as synchronization of efforts with the poppy
cultivation cycle and address initiatives such as prospective use of herbicides. (Action:
Embassy Kabul, in coordination with the intergovernmental Strategic Communications
Working Group)

       The IG assessment team was informed that USAID concluded that attention to PI
aspects of ALP by H&K was inadequate. USAID thus turned to its contractor,
Chemonics, to publicize its ALP efforts in the southern region.47 Both Chemonics and
H&K subcontracted with the same Afghan firm, Sayara, for language services needed in
conjunction with their respective PI work. Issues of possible duplication of effort by
Chemonics and H&K and possible double billing by Sayara should be clarified.

Recommendation 23: Embassy Kabul should examine the contracts with and activities
of Hill & Knowlton and Chemonics to ensure that there is no duplication of effort and
that the U.S. Government is not double-billed for services provided by the sub-contractor,
Sayara. (Action: Embassy Kabul, in coordination with USAID/Kabul)

        Poppy Elimination Program

        The CNTF’s main contribution to PI is the Poppy Elimination Program. The U.S.
Government and UKG support this GOA program. PEP teams support provincial
governors by addressing three needs: (1) community outreach, (2) development liaison,
and (3) gathering information on poppy cultivation. The teams operate in the seven top
poppy producing provinces (Helmand, Kandahar, Farah, Uruzgan, Nangahar, Badakshan,
and Balkh).

        Each PEP team consists of two international advisors and up to six GOA
employees who are preparing to take over the provincial PI role. Teams have workspaces
near those of the respective provincial governor. A seven-man security-driver crew
consisting of six guards/drivers and a DynCorp translator supports each team. Because of
the security situation, the international members of the PEP teams live in secure
locations.

       At the time of this assessment, a contract employee working in the CNTF was the
Embassy Kabul PEP program manager. The IG assessment team heard repeated
complaints that this person’s insistence on tight control over the program had alienated
some employees, prevented linkages with other embassy programs, and may have been
an important contributing factor in the perceived inadequate performance of DynCorp,
47
  USAID planned to task counterpart ALP contractors in other parts of the country to publicize ALP
efforts. The team did not ascertain whether or how relevant contracts were amended to provide this extra
service.


Interagency Assessment of Afghanistan Counternarcotics Programs                                       43
                                          UNCLASSIFIED

the contractor that provided logistic and security support to the teams. There were
countervailing complaints about DynCorp’s performance. The differences among these
players should have been mediated through oversight and supervision. However, as a
contractor, the embassy’s PEP manager did not have supervisory authority. A regularly
assigned officer, logically the PI coordinator recommended in the ‘Cross-cutting Issues’
section earlier in this report, should supervise the PEP program.

Recommendation 24: Embassy Kabul should assign the management of the poppy
elimination program to the career public information officer within the embassy’s
Counternarcotics Task Force. (Action: Embassy Kabul, in coordination with Department
of State/DGHR and INL)

In their comments to the draft report, both US Embassy Kabul and INL stated that a new
Poppy Elimination Program advisor, a Department of State employee, had arrived and
was addressing the identified problems. The IG assessment team does not disagree with
this solution, providing the advisor effectively integrates the program into the efforts of
the CNTF.

        PEP and H&K maintain separate PI teams in seven provincial capitals. U.S.
military information officers are also assigned at some of those locales. These PI units
have little interaction. For example, during a visit to a provincial reconstruction team
(PRT), IG assessment team members were informed that the military information
specialist (assigned by CFC-A) was instructed not to work with the locally based PEP
team. Coordination, to include sharing of ‘best practices’, would enhance the overall
impact of U.S. Government-funded PI efforts. An informal recommendation was made.
        As they work directly with farmers and others in high poppy-cultivation areas, the
PEP teams and their H&K counterparts are ideally situated to gain insights into the opium
industry. Although both PEP and H&K teams are supposed to report periodically on
their activities, there is no systematic processing of information of high interest to
Washington end-users. The IG assessment team made an informal recommendation to
address this issue.

           Contracts

        The IG assessment team confirmed by inspection that PI contracts were loosely
written (especially as related to desired outcomes). As described above, management and
oversight of the contracts merit attention. Within the embassy there was considerable
dissatisfaction with the contracts and the contractors.

       INL contracted with H&K to carry out all its PI activities. The contract called for
H&K to: (1) build PI capacity at the Ministries of Agriculture, Interior, and Rural
Reconstruction and Development through mentoring and planning;48 (2) conduct PI
campaigns in narcotics growing areas; and (3) give the embassy strategic advice. The
contract’s only firm metric was the number of hours worked by H&K’s international

48
     Curiously, the H&K contract did not include working with the Ministry for Counternacotics.


44                          Interagency Assessment of Afghanistan Counternarcotics Programs
                                   UNCLASSIFIED


staff. Much of the embassy’s frustration with H&K centered on the impression that the
PI campaign was insufficiently vigorous. However, there was no evidence that the
embassy had instructed H&K to change its priorities. The H&K contract will expire in
May 2007. Tighter contracting procedures are recommended in the section on ‘Cross-
cutting Issues.’

        Subsequent to the initial contract, H&K was assigned an additional responsibility.
In 2006, the embassy’s CNTF and the GOA developed a PI program called Message
Multipliers (MM). The purpose is to underwrite the costs of organizing shuras
(community meetings) at which provincial governors and central government officials
(“message multipliers”) seek to persuade farmers not to cultivate poppy. The message is
to be further “multiplied” by maliks (tribal leaders attending the shura) who thereafter are
to spread the word throughout the province. The MM program covers expenses involved
in these meetings at a standard rate of $10,000 per governor-led shura. INL agreed to
fund the MM program. Because of legal difficulties in directly transferring the funds,
INL engaged H&K as the transferring agent. This program seems worthwhile, but the
money trail is irregular and insufficiently documented. This procedure should be altered
to document disbursement of funds and to evaluate the resulting program. The IG
assessment team made informal recommendations relevant to the MM program.

         A second PI-related contract is with DynCorp and covered logistic support and
security of the seven PEP teams. The PEP manager and team members were unhappy
with DynCorp’s alleged repeated failures to respond promptly to complaints and to
address problems adequately. Company officials asserted that the PEP program manager
ordered PEP team members not to communicate their concerns directly to the contractor,
and that the PEP manager denied the contractors regular contact with the teams on site by
restricting their access to flights to the provinces. This DynCorp contract expired in
September 2006, but has been extended through January 2007.

       When new contracts are drawn for both basic PEP efforts and associated life
support for international staff, those contracts should provide for regular oversight by an
embassy officer. The matters of how to provide life support of PEP international staff at
lowest cost should be addressed in the new contracts.

Recommendation 25: The Department of State should draw up and compete new
contracts for conduct and support of the counternarcotics public information effort in
Afghanistan. The contracts should specify measurable outcomes and clear lines of
oversight and control. (Action: Department of State’s Office of Acquisition Management
(A/AQM), in coordination with INL and Embassy Kabul)

       Under the DynCorp support contract, non-Afghan members of the PEP teams
were to live in PRT facilities and thus be able to “piggy-back” on the PRTs’ life support
arrangements. When CFC-A declined to accommodate the PEP teams on the PRTs,
DynCorp was confronted with the need to build and equip secure facilities in five
provinces. However, the pattern was not entirely consistent. A PRT headed by the Dutch


Interagency Assessment of Afghanistan Counternarcotics Programs                         45
                                  UNCLASSIFIED

hosted a PEP team while PRTs under U.S. leadership in other provinces denied access to
counterpart PEP teams. Transfer of responsibility for military operations from CFC-A to
ISAF opens the possibility for revisiting this issue. However, although ISAF tries to
coordinate PRT efforts, the command does not control these activities. Support to PEP
will be up to the key partners at the respective PRT.

Recommendation 26: Embassy Kabul should seek agreement from International
Security Assistance Force authorities to accommodate poppy elimination program
International Advisors within provincial reconstruction team facilities where practical.
(Action: Embassy Kabul, in coordination with ISAF)

In their comments to the draft report, US Embassy Kabul stated that the recommendation
should make a distinction between the International Advisor and the Poppy Elimination
Team, and that “a wide range of logistical issues dictate where [advisors] reside.” The
IG assessment team accepted those points and modified the recommendation.




46                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                        UNCLASSIFIED



Regional Players and Issues
Intergovernmental Cooperation

        The U.S. Government has been the predominant source of international funding
for CN efforts in Afghanistan. During FY 2005 and FY 2006, the U.S. Government
allocated over $1.3 billion through the Departments of State, Defense, Justice, and
USAID for relevant programs. However, as noted elsewhere, the GOA recognizes the
UKG as their ‘key partner’ for CN issues. This does not give the UKG a ‘veto’ over U.S.
Government initiatives, but success in CN efforts counsels an integrated approach
whenever possible.

        Despite some policy differences (e.g., the UKG and most coalition governments
oppose use of herbicides in eradication), cooperation on CN issues between the U.S.
Government and UKG was close and generally productive. A bilateral U.S.
Government-UKG, interagency “Counternarcotics Strategy Group,” which meets about
once every six months and rotates between Washington and London, is instrumental in
formulating CN policy decisions. In Afghanistan, Embassy Kabul’s CNTF and the
British Embassy’s BEDT coordinate on CN plans and program implementation. Leaders
of those two offices interact on essentially a daily basis.

        U.S. Government legal advisers crafted the Afghan CN law. The U.S.
Government was instrumental in President Karzai’s decision to issue the law by decree in
December 2005. Italy had the Bonn lead for the justice reform pillar. In something of a
mismatch with the American-drafted CN law, the Afghan criminal code mirrors the
Italian prosecutorial approach. Meanwhile, Afghan prosecutors and judges working on
CN cases receive training principally from Norwegian and U.S. mentors.49

      Germany had the Bonn Agreement lead for training the ANP force, but the U.S.
Government funds most training, including that of the subsidiary CNP-A. Within the
CNP-A, Blackwater (with DOD funding) is the contractor responsible for training the
NIU.

        Practical steps ensued from Washington – London collaboration on CN issues. A
JNAC operates in London. Key U.S. agencies work at that center alongside British
counterparts.50 The JNAC mandate is to prepare integrated analyses of narcotics-related
issues drawing on all-source intelligence. Some JNAC studies are in response to
requirements that the bilateral Counternarcotics Strategy Group establishes; other

49
   All cases involving two or more kilograms of opium/opium derivatives or ten or more kilograms of
hashish are handled through the centralized Criminal Justice Task Force (CJTF) in Kabul. Centralization
aims to eliminate – or at least reduce – corruption. The caseloads resulting from these low “floors”
threatens to overwhelm the limited capacities of the CJTF.
50
   The Defense Intelligence Agency (DIA) representative is the U.S. Government lead liaison officer at the
JNAC.


Interagency Assessment of Afghanistan Counternarcotics Programs                                       47
                                  UNCLASSIFIED

analyses come from ‘taskings’ within the JNAC itself or in response to requests
generated in Afghanistan.

        Several U.S. Government agencies were represented at the JNAC. A notable
exception is DEA. JNAC participants have pressed repeatedly for DEA to assign an
individual to the organization. DEA has declined to fill the position, stating that the
benefit to the DEA and its operations would be minimal. However, DEA officials
informed the IG assessment team that the DEA and UKG officials have agreed that
instead of assigning a person to the London facility, the DEA will coordinate with the
JNAC in a virtual environment.

        Among principal users of JNAC analyses is the IOCC in Kabul. Leadership of
the IOCC rotates between representatives from the UKG’s Serious Organised Crimes
Agency (SOCA) and DEA. Drawing on JNAC input and more real-time intelligence, the
IOCC prepares ‘targeting packages’ for interdiction efforts carried out by law
enforcement agencies of the U.S. Government and UKG in conjunction with Afghan
units trained and mentored by each.

        A 2005 “implementing directive” signed by INL and SOCA established the
IOCC. Each government pays for its respective staff. However, the implementing
directive makes no mention of funding for other expenses (such as office space,
equipment, and communications). Meanwhile, in Kabul, logistical considerations take on
greater significance as plans move forward for relocation of the IOCC from the CFC-A
base to the ISAF compound. The IG assessment team concluded that funding and
support aspects of the IOCC should be formally agreed and specified between
Washington and London, with flexibility to encompass the planned expansion to include
representatives from Australia and Canada.

Recommendation 27: The Department of State should negotiate a memorandum of
understanding between the Governments of the United States and the United Kingdom to
replace the implementing directive that established the International Operations
Coordinating Center in Kabul. The memorandum should specify tasking authority,
funding, staffing and operational responsibilities of each government. (Action:
Department of State/SCA-led CN Strategic Group, in coordination with the Department
of State/L and EUR)

         ISAF assumption of responsibility for coalition military operations in Afghanistan
directly impacts CN operations. The ISAF mandate specifies a CN support role. In
reality, ISAF engagement likely will take the form of in extremis and quick reaction force
operations. A major constraint is that, at the time of this assessment, ISAF (representing
37 governments) had a total of 27 helicopters for all operations in Afghanistan. Although
the ISAF Commander reiterated to the IG assessment team the commitment to support
CN efforts, he was candid in noting that such support would be conditioned by “means
and capabilities,” subject to other requirements and demands on ISAF resources.




48                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                     UNCLASSIFIED


        Another ISAF dimension stems from “national caveats” that various ISAF
member countries place on the involvement of their forces in CN operations. The NATO
Secretariat focused on national caveats at a November 2006 summit in Riga, Latvia.
Most attention – judging from media coverage – dealt with caveats relating to
involvement in ‘kinetic’ (i.e., combat) operations. Similar constraints – sometimes
subject to interpretation by the on-scene commander – pertain to CN. For example,
Germany does not permit its military forces to participate in CN operations. CN planners
and implementers, therefore, need -- but presently do not have -- an accurate
compendium of national caveats and a corresponding analysis of implications for CN
programs. The IG assessment team informally recommended compilation of such
information.

Regional Factors

        Poppy cultivation, opium gum collection, and initial trafficking are domestic
problems within Afghanistan and require an Afghan solution with foreign assistance.
A JNAC analysis concludes that an increasing volume of opium paste is converted to
heroin inside Afghanistan. One British scholar states that “only about 30 percent of
Afghanistan’s opium is exported raw and the remainder is transformed into either
morphine base or heroin. This is a relatively new development indicative of the
maturing of the opium industry.”51

       However, the effects of the Afghan poppy culture are not limited to the
country itself. Considerable conversion from morphine to heroin takes place in
Pakistan, Turkey, and other venues. Most consumption occurs outside Afghanistan,
although domestic addiction is enough of a concern to prompt the GOA to include
“demand reduction, prevention, and treatment” as one pillar of their CN strategy.
Importantly, the vast majority of the revenue stream from the narcotics industry is
generated outside the country. Less than ten percent of the total revenues end up
inside Afghanistan.

       Dealing with aspects of the narcotics industry that transcend Afghanistan’s
borders requires a transnational CN effort. The Afghans recognize this, including
“International and Regional Cooperation” as one pillar in their CN strategy.

        As with all other institutions, the Afghan border organizations are
underdeveloped. The border police, customs police, and customs officer
organizations are understaffed, barely equipped, and poorly paid. Much of their
leadership is corrupt. A senior U.S. Government representative told the IG
assessment team that border officials have only negative incentives. Effective
officers receive no additional monetary compensation, but attract the ire of traffickers
and corrupt senior officials. PRT representatives and senior diplomats relayed

51
 Jonathan Goodhand, “Frontiers and Wars: The Opium Economy in Afghanistan”, Journal of Agrarian
Change, Vol. 5 No. 2, April 2005, pp. 191-216.


Interagency Assessment of Afghanistan Counternarcotics Programs                               49
                                        UNCLASSIFIED

instances of corrupt Afghan border officials. For example, one provincial Afghan
border official was suspected of skimming hundreds of thousands of dollars a week,
but his political and social connections prohibited the provincial governor from taking
action.

      The Afghan border has three distinct sections: northern (Turkmenistan,
Uzbekistan, Tajikistan), eastern-southern (Pakistan), and western (Iran).

        The northern border traverses rugged terrain with limited crossing points and
divides tribal lands. In one case, an Afghan official suspected of also being a senior
trafficker lives and works in Afghanistan, but also has a permanent residence in
Tajikistan. The U.S. Corps of Engineers Afghanistan Engineer District, USAID, and
the European Union are all conducting development projects along this stretch of the
border, but progress is slow.

         The British established the eastern-southern border (the ‘Durand Line’) as the
northern limit of India prior to Pakistani independence. It divides traditional Pashtun
tribal lands. Pakistan and Afghanistan have never formally agreed to a border trace,
and people and goods cross back and forth virtually at will. Control improvements
are difficult along this part of the border because of ongoing combat operations.52
Especially in this area, there is increasing evidence of connection between narcotics
trafficking and the Taliban insurgency.

        The Afghan and Iranian governments mutually accept the western border. As
evidenced by seizures and other anecdotal evidence, Iran was a primary transit route
for Afghan opiates. The Iranian government appears determined to combat the
problem, and with the UN assistance is constructing a moat along the Afghan-Iranian
border in an attempt to establish control over the common border with Afghanistan.
As of October 2006, there were virtually no conventional coalition forces in Nimruz
province, and little control at the border crossing near Zaranj (both on the Afghan
side of the border.) Coalition construction of a modern border crossing facility near
Zaranj initially caused Iranian consternation, but once explained generated a positive
response.




52
  As this report was being prepared, a Pakistani proposal to fence and/or mine stretches of the boundary
drew sharp, negative reaction from the government in Kabul.


50                        Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED



Formal Recommendations
Recommendation 1: The Department of State should take the lead to develop a policy
document specifying the priority of counternarcotics relative to other U.S. objectives in
Afghanistan and, thence, respective roles and responsibilities for pursuing an agreed
counternarcotics strategy for Afghanistan. This document should be referred to the
Deputies’ Committee and, if necessary, Principals’ Committee for approval. (Action:
Department of State/INL, in coordination with members of the Inter-Agency
Counternarcotics Strategy Group)

Recommendation 2: The Department of State working through the Afghanistan Inter-
Agency Operations Group should prepare a rolling five-year budget and performance
plan for U.S. Government funded counternarcotics programs in Afghanistan. The plan
should include outcome measures to track the effectiveness of these programs. (Action:
Department of State/INL, in coordination with the AIOG)

Recommendation 3: The Afghan Inter-Agency Operations Group should present the
rolling five-year budget and performance plan to participating departments and agencies
for use in budget preparations. (Action: Department of State/INL, in coordination with
the AIOG)

Recommendation 4: The Department of State should ensure the in-country contracting
officer’s representative and project officer are involved in developing all future
statements-of-work for counternarcotics related contracts. (Action: Department of
State/INL, in coordination with A/OPE and Embassy Kabul)

Recommendation 5: Embassy Kabul should develop a position description for the
Minister-Counselor for Counternarcotics at Embassy Kabul. (Action: Embassy Kabul, in
coordination with Department of State/DGHR and INL)

Recommendation 6: The Department of State should fill the position of Minister-
Counselor for Counternarcotics at Embassy Kabul with an officer at the Minister
Counselor level on the basis of a two-year assignment. (Action: Department of
State/DGHR)

Recommendation 7: Embassy Kabul should develop a position description for a
coordinator of interagency and intergovernmental counternarcotics issues at Embassy
Kabul. (Action: Embassy Kabul, in coordination with the Department of State/DGHR
and INL)

Recommendation 8: The Department of State should fill the position of coordinator of
interagency and intergovernmental counternarcotics issues at Embassy Kabul with a
qualified officer. (Action: Department of State/DGHR)




Interagency Assessment of Afghanistan Counternarcotics Programs                        51
                                 UNCLASSIFIED
Recommendation 9: Embassy Kabul should develop a position description for a public
diplomacy officer to organize and oversee counternarcotics public information programs
in Afghanistan. (Action: Embassy Kabul, in coordination with Department of
State/DGHR and INL)

Recommendation 10: The Department of State should assign a qualified officer to
oversee counternarcotics public information programs in Afghanistan. (Action:
Department of State/DGHR)

Recommendation 11: Embassy Kabul should develop a position description for an
administrative support officer to serve within the Embassy Kabul Counternarcotics Task
Force. (Action: Embassy Kabul, in coordination with the Department of State/DGHR
and INL)

Recommendation 12: The Department of State should assign a qualified officer to serve
within Embassy Kabul’s Counternarcotics Task Force as administrative officer. (Action:
Department of State/DGHR)

Recommendation 13: The Department of State should lead an interagency assessment
of the Afghanistan counternarcotics air mission requirements, including aircraft types,
quantities, and sustainment. (Action: Department of State/INL, in coordination with the
AIOG)

Recommendation 14: Embassy Kabul should develop a coordinated list of U.S.
Government requirements for space at Kabul International Airport for use in the
counternarcotics mission and negotiate with the Afghan government for such allocation.
(Action: Embassy Kabul, in coordination with Combined Security Transition Command-
Afghanistan)

Recommendation 15: The Department of State, through the U.S. section of the
intergovernmental Counternarcotics Strategy Group, should request that the Joint
Narcotics Analysis Center in London analyze the cost-benefit ratios of central
government-led eradication and governor-led eradication in Afghanistan. (Action:
Department of State/INL, in coordination with members of the Counternarcotics Strategy
Group)

Recommendation 16: The Department of State should develop a regular process to
prepare and present a detailed annual Afghan poppy eradication plan by October of each
year for implementation in the following harvest season. This plan should be shared with
all U.S. agencies involved in counternarcotics programs in Afghanistan. (Action:
Department of State/INL, in coordination with Embassy Kabul)

Recommendation 17: Embassy Kabul, in consultation with the Bureau of
International Narcotics and Law Enforcement Affairs, the U.S. Agency for
International Development, the Government of Afghanistan, and other
counternarcotics partners, should consider whether providing alternative livelihood
program funding to provinces with zero or low poppy cultivation would increase the


52                   Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED


overall elimination of poppy cultivation (Action: Embassy Kabul, in coordination
with Department of State/INL, USAID, GOA, and other CN partners)

Recommendation 18: Embassy Kabul, in consultation with the Bureau of
International Narcotics and Law Enforcement Affairs, the U.S. Agency for
International Development, the Government of Afghanistan, and other
counternarcotics partners, should consider increasing the funding for the Good
Performers Fund so as to maximize overall reduction of poppy cultivation. (Action:
Embassy Kabul, in consultation with Department of State/INL, USAID, GOA, and
other CN partners)

Recommendation 19: The Department of Justice should evaluate the number of agents
assigned to Afghanistan and attempt to assure adequate resources to accomplish
counternarcotics objectives, including mentoring. (Action: Department of Justice/DEA,
in coordination with Embassy Kabul)

Recommendation 20: The Department of Justice should take steps to expedite
assignment of Assistant U.S. Attorneys to the Criminal Justice Task Force in
Afghanistan. To help ensure continuity, the assistant U.S. attorney’s assignments should
be at least one year in duration. (Action: Department of Justice Criminal Division, in
coordination with Embassy Kabul)

Recommendation 21: Embassy Kabul should transfer the Public Affairs Officer's
external coordinating functions relative to counternarcotics to the public information
officer assigned to the Counternarcotics Task Force specifically to work on
counternarcotics issues. (Action: Embassy Kabul)

Recommendation 22: Embassy Kabul should develop an annual public information
plan that would address issues such as synchronization of efforts with the poppy
cultivation cycle and address initiatives such as prospective use of herbicides. (Action:
Embassy Kabul, in coordination with the intergovernmental Strategic Communications
Working Group)

Recommendation 23: Embassy Kabul should examine the contracts with and activities
of Hill & Knowlton and Chemonics to ensure that there is no duplication of effort and
that the U.S. Government is not double-billed for services provided by the sub-contractor,
Sayara. (Action: Embassy Kabul, in coordination with USAID/Kabul)

Recommendation 24: Embassy Kabul should assign the management of the poppy
elimination program to the career public information officer within the embassy’s
Counternarcotics Task Force. (Action: Embassy Kabul, in coordination with Department
of State/DGHR and INL)

Recommendation 25: The Department of State should draw up and compete new
contracts for conduct and support of the counternarcotics public information effort in
Afghanistan. The contracts should specify measurable outcomes and clear lines of

Interagency Assessment of Afghanistan Counternarcotics Programs                          53
                                  UNCLASSIFIED
oversight and control. (Action: Department of State’s Office of Acquisition Management
(A/AQM), in coordination with INL and Embassy Kabul)

Recommendation 26: Embassy Kabul should seek agreement from International
Security Assistance Force authorities to accommodate poppy elimination program
International Advisors within provincial reconstruction team facilities where practical.
(Action: Embassy Kabul, in coordination with ISAF)

Recommendation 27: The Department of State should negotiate a memorandum of
understanding between the Governments of the United States and the United Kingdom to
replace the implementing directive that established the International Operations
Coordinating Center in Kabul. The memorandum should specify tasking authority,
funding, staffing and operational responsibilities of each government. (Action:
Department of State/SCA-led CN Strategic Group, in coordination with the Department
of State/L and EUR)




54                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                   UNCLASSIFIED



Informal Recommendations
Narcotics-related issues reach into every element of Afghan political, economic and
social life. Various U.S. Government and international observers have highlighted CN as
the first or second most important effort being undertaken in Afghanistan by the
international community, yet the IG assessment team learned that some officers at
Embassy Kabul were ill informed about CN policies and programs. Reportedly, CN
issues were not addressed as part of their in-brief, either in Washington or upon arrival in
country.

Informal Recommendation 1: Embassy Kabul should develop a standard
counternarcotics briefing for officers assigned to the positions that involve representation
or reporting functions.

Public information contractors and personnel have overlapping responsibilities in some
provincial capitals. There was minimal interchange among these elements in the field. In
at least one case observed by the IG assessment team, there were direct instructions to a
military information officer not to work with the locally based PEP team. The different
PI units would benefit from exchanging information to include “best practices.”

Informal Recommendation 2: Embassy Kabul should convene periodic meetings to
bring together leaders of U.S. Government-funded public information programs for an
exchange of views. In between such sessions, there should be regular and systematic
electronic communication among and between public information elements, inter alia to
share best practices.

During the survey phase for this assessment, a number of Washington end-users of
reporting from Kabul pointed to the need for more CN reporting from Embassy Kabul.
Perhaps the desire for such information was greater than could be met by the embassy
staff, but the IG assessment team concluded that the Embassy Kabul could tap into
additional resources to augment the reporting stream. Prime among these are the PI
teams and officers who work in provincial capitals.

Informal Recommendation 3: Embassy Kabul should encourage public information
personnel to report on a regular basis, then process and forward the items that would be
most informative for Washington departments and agencies that rely on Embassy Kabul
reporting.

The ‘message multipliers’ program was loosely conceived to underwrite expenses for CN
shuras. At the time of this assessment, H&K was responsible for disbursing MM funds.
Accountability for these expenditures was not well defined, nor were there established
processes for evaluating the impact and effectiveness of the MM program.

Informal Recommendation 4: Embassy Kabul should work with the Department of
State to ensure that the contract to succeed the one with Hill & Knowlton (that expires in

Interagency Assessment of Afghanistan Counternarcotics Programs                          55
                                 UNCLASSIFIED
May of 2007) defines responsibilities for message multipliers fund accountability and
periodic evaluation of the impact and effectiveness of these programs.

National ‘caveats’ restricted or conditioned the operational engagement in CN efforts by
various ISAF governments. This hindered the effectiveness of the overall CN effort. At
the time of this assessment, Embassy Kabul did not have full knowledge of what relevant
‘caveats’ might be or how those might affect CN operations. The transfer of coalition
security responsibility from CFC-A to ISAF presents opportunities better to understand
the ‘national caveats’ and how these might affect CN efforts.

Informal Recommendation 5: Working with International Security Assistance Force
officials and counterparts in coalition governments’ embassies in Kabul, Embassy Kabul
should endeavor to catalogue national ‘caveats’ related to counternarcotics and analyze
how those might impact operations.




56                   Interagency Assessment of Afghanistan Counternarcotics Programs
                               UNCLASSIFIED



Abbreviations
AEF                   Afghan Eradication Force
AIOG                  Afghanistan Inter-Agency Operations Group
ALP                   Alternative Livelihoods Program
ANP                   Afghan National Police
AUSA                  Assistant United States Attorney
BEDT                  British Embassy Drug Team
CFC-A                 Combined Forces Command – Afghanistan
CJTF                  Criminal Justice Task Force
CN                    Counternarcotics
CNP-A                 Counternarcotics Police – Afghanistan
CNT                   Counternarcotics Tribunal
CNTF                  Counternarcotics Task Force
CPEF                  Central Poppy Eradication Force
DCM                   Deputy Chief of Mission
DEA                   Drug Enforcement Administration
DOD                   Department of Defense
DOJ                   Department of Justice
FAST                  Foreign Advisory Support Team
GBS                   Ground Based Spraying
GLE                   Governor Led Eradication
GOA                   Government of Afghanistan
GPF                   Good Performers Fund
H&K                   Hill and Knowlton (Department of State contractor)
IG assessment team    Inspectors General assessment team
INL                   Bureau of International Narcotics and Law Enforcement Affairs
                      (Department of State)
IOCC                  International Operations Coordinating Center
ISAF                  International Security Assistance Force
JNAC                  Joint Narcotics Analysis Center (London)
MM                    Message Multipliers
NATO                  North Atlantic Treaty Organization
NIU                   Narcotics Interdiction Unit
ONDCP                 Office of National Drug Control Policy
PAO                   Public affairs officer
PEP                   Poppy Elimination Program
PI                    Public Information
PRT                   Provincial Reconstruction Team
PTO                   Primary Target Organization (Department of Justice)
SOCA                  Serious Organised Crime Agency (UKG entity)
UKG                   United Kingdom Government
UNODC                 United Nations Office of Drugs and Crime
USAID                 U.S. Agency for International Development
USMS                  U.S. Marshals Service




Interagency Assessment of Afghanistan Counternarcotics Programs                       57
                UNCLASSIFIED




58   Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED



Appendix A: History and Background

c. 3400 B.C.—First records of opium cultivation, in lower
Mesopotamia.

c. 1300 B.C.—Egyptians and Phoenicians grow poppy.
Mediterranean opium trade flourishes.

330 B.C – Alexander the Great introduces opium to the people
of Central Asia – Persian Afghanistan, and India.

1600’s-1700’s – Opium becomes main commodity of British
trade with China. British East Indian Company controls the
Bengal and Bihar opium-growing districts for the opium trade
out of Calcutta.

1803 – Using acid and ammonia, Friedrich Serturner discovers alkaloids – the active
ingredient of opium – and the result is morphine.

1843 – Dr. Alexander Wood discovers new – and more effective – technique of
administering morphine, injection with a syringe.

1895 – Heinrich Dreser, of the Bayer Company in Germany, dilutes morphine with
acetyls, producing a new drug – which he calls “heroin.”

1932 – First year of recorded opium production in Afghanistan: 75 metric tons.

1971 – Opium production was reportedly about 100 metric tons.

1978 – U.S. supported aerial spray program in Mexico successfully reduces poppy fields
producing “Mexican Mud.” This triggers an upsurge in cultivation and processing in the
Golden Crescent of Afghanistan, Pakistan and Iran.

1979 – Soviet Union invades Afghanistan in December.

1980 – Authorities in Kabul begin to lose control of provinces, and poppy cultivation
expands in parallel with collapse of state authority. Meanwhile, Iran, Pakistan, and
Turkey undertake harsh anti-drug campaigns, providing producers in Afghanistan –
which accounts for 19 percent of world production -- an opportunity to expand supplies
to foreign markets.

1981-83 – Regional military commanders and warlords turn increasingly to poppy
cultivation, opium production, and drug trafficking as sources of revenue and influence.
Opium production rises to 300 metric tons in 1982, then 575 metric ton the next year.

Interagency Assessment of Afghanistan Counternarcotics Programs                       59
                                  UNCLASSIFIED

1989 – Total withdrawal by Soviet Union in February, after losing 40,000-50,000 troops.

1989 – Opium crop registers 585 metric tons.

1992 – By the time that Soviet support for the Kabul regime ended and the United States
stopped arms shipments to the resistance, Afghan mujahadin guerillas were already
greatly expanding opium crops as an alternative source of finance, according to the UN
anti-drug commission.

1992-93 – Between four and six million Afghan refugees, who had lived for a decade in
Pakistani camps along the border, return to a war-ravaged homeland. Poppy, as one of
the few viable crops available to farmers, increasingly becomes an economic survival
mechanism.

1993 – Opium crop stands at 900 tons.

1994 – Taliban movement is created in mid-year.

1995 – Afghan opium production reportedly stands at 3000 metric tons, representing 52
percent of the global market.

1995-96 – Taliban militia achieve massive battlefield gains through Afghanistan,
establishing regime in Kabul. Taliban officials mirror practices of warlord predecessors,
raising revenue from poppy cultivation and opium trade – ushr, an agricultural tax in kind
amounting to ten percent, and zakat, a traditional Islamic tithe.

1998 – In August, United States launches cruise missiles against bases/training facilities
used by Osama bin Laden and followers.

1999 – In October, UN Security Council Resolution 1267 is adopted, imposing sanctions
against the Taliban on grounds that they offered sanctuary to Osama bin Laden.

2000 – Taliban impose ban on poppy cultivation in July, but allow the opium trade to
continue, amidst speculation that the move is an effort to improve the international image
of the government, widely criticized for its human rights practices. Later, experts
conclude that the ban was designed to increase the market price of opium stocks held by
the Taliban.

2000 – In December, UN Security Council Resolution 1333 is adopted; additional
sanctions against the Taliban for their continuing support of terrorism and cultivation of
narcotics

2001 – Spring harvest falls to 185 metric tons, only six percent of the preceding year’s
level.




60                    Interagency Assessment of Afghanistan Counternarcotics Programs
                                   UNCLASSIFIED


2001 – September 11 attacks on World Trade Center and the Pentagon kill more than
3,000 people.

2001 – The U.S. and British governments, working with Afghan allies, launch air strikes
against Taliban forces in October. Anticipating fall of the Taliban regime, Afghan
farmers resumed annual planting of opium poppy.

2001 – Bonn Agreement in December: Under UN auspices, Afghan political groups
come together to form an interim government, with Hamid Karzai selected as chairman.

2002 – In January, Afghan leaders commit new government to combat opium poppy
cultivation and request international counternarcotics assistance. British assume Bonn
Agreement lead on counternarcotics issues.

2002 – Interim government in Kabul issues an April decree on eradication and offers
compensation of US $250 per jerib (i.e. $1,250 per hectare), which later increases to
$300 per jerib (i.e. $1,750 per hectare). The program produces few results. In any case,
it reportedly encourages farmers to increase poppy cultivation in hope of attaining more
compensation the following year.

2002 – Loya Jirga elects Hamid Karzai as President of a transitional government in June.
Karzai picks members of his administration to serve until elections in 2004.

2002 – Interim authorities issue a new ban on poppy cultivation in August that also
covers processing and trafficking of opium products.

2002 – UNODC October announcement that Afghanistan has produced an estimated
3,400 metric tons, making it the world’s largest opium producer.

2003 – Interim government issues National Drug Control Strategy in May, the country’s
first such document.

2004 – Afghanistan adopts a new constitution, creating a republic with three branches of
government (Executive, Legislative, and Judiciary).

2004 – After two delays, presidential elections take place in December. Hamid Karzai
receives 55 percent of the votes and assumes office.

2006 – In January, the new government issues an “Updated Five Year Strategy for
Tackling the Illicit Drug Problem.”

2006 – At a February conference in London, Afghanistan and the international
community announce an “Afghanistan Compact.” It calls counternarcotics “a cross-
cutting priority” and establishes goal of “a sustained and significant reduction in the
production and trafficking of narcotics with a view to complete elimination.”


Interagency Assessment of Afghanistan Counternarcotics Programs                           61
                UNCLASSIFIED




62   Interagency Assessment of Afghanistan Counternarcotics Programs
                                       UNCLASSIFIED



Appendix B: Case Study: Airlift

        Execution of many CN programs requires
                                                                   Figure 1.
moving personnel and equipment by air. U.S.
Government elements with air assets used to support                  U.S. Agency Aircraft
CN efforts in Afghanistan are INL, DOD, DEA, and                     Supporting CN Efforts
USAID. This appendix discusses actions during 2005                      (as of October 2006)
and 2006. During these years, participating U.S.
Government agencies deployed aviation assets in an                     ORGANIZATION
                                                                             Aircraft Type       Total
uncoordinated manner. This resulted in a mosaic of
                                                                       DoD (support to Afghan NIU)
airframes as shown in figure 1. There is no single                           Mi-17               10*
office to optimize use of these limited but critical                   INL
assets.                                                                      Mi-8                  2
                                                                             Mi-26                1**
                                                                             An-32                 1
        INL is primarily responsible for eradication. As                     Huey II              10
of October 2006, INL had taken two major actions to        DEA
acquire aviation support for eradication: a “wet lease”         Beach King Air 350                 1
of rotary and fixed wing assets, and procurement of 10     USAID
                                                                Beach King Air 200                 2
Huey II aircraft. Aviation assets were to provide
                                                           * Planned - 2 in Kabul as of October 2006
support for “medical evacuations, reconnaissance,          ** Lease terminated as of November 2006
search and rescue, transportation of personnel,
transportation of equipment and materials, and
deployment and recovery of counternarcotics teams.” The assets are divided between
airfields at Kandahar and Kabul.

       In August 2005 INL contracted for leased air support, requiring three helicopters
and two fixed wing aircraft (two Mi-8, one Mi-26, one Antonov-12, and one Antonov-32
or equivalents). In early 2006, INL representatives in Kabul documented significant
concerns with contract performance causing capability limitations. Specifically,
helicopter crews refused to perform tasks within the contract scope and insisted on light
loading of the aircraft due to inadequate insurance. However, INL exercised a contract
option year for 2007, but removed the Mi-26 as a cost saving measure.

        In August 2005, INL requested and received funding for 10 Huey II helicopters
for delivery to Kabul, Afghanistan to support eradication operations commencing in
February 2006. Their mission concept was to provide helicopter support to ground
eradication forces from a main operating base in Kabul and selected forward operating
bases. In addition to the missions listed above, INL listed gunship support, command and
control, general personnel transport, and support to DEA tactical training as further
justification for the air wing.

       INL procured and deployed the assets using contract pilots, flight operations, and
maintenance. According to an INL briefing in August 2006, concerned parties were
aware that altitude throughout the area of operations limited the maximum weight

Interagency Assessment of Afghanistan Counternarcotics Programs                                    63
                                        UNCLASSIFIED
allowance and restricted the Huey II operating range to 98 miles from their base.
Security concerns necessitated that forward operating bases must colocate with DOD
installations or National Police regional training centers. Finally, the element was not
staffed for 24-hour operations and could conduct night operations only in emergencies.
Air transport limitations were a critical planning element for the 2007 eradication
campaign.

         DOD typically provides in extremis support to CN operations, as such support is
available. DOD also participates in two CN related aviation tasks: providing helicopter
transport to DEA, and building the Afghan Counter Narcotics Aviation Squadron. The
first is a short-term assistance mission. The second is a long-term project that will build
NIU capabilities and replace operational support provided by DOD to DEA.

        As discussed earlier in this report, the perception of the low priority assigned by
DOD to DEA requests generated interagency frustration during 2006. According to
information provided by DOD, DEA requested support for 17 missions between January
and July 2006. DOD supported 12 administrative requests for routine personnel
transport. Four of five operational missions were cancelled prior to launch. DOD denied
support for the final request. DOD support for DEA operations is prohibited under
certain conditions, even when deployed53.

        A functional Afghan Counter Narcotics Aviation Squadron would provide the
long-term solution. The planned force structure for the Afghan Joint Aviation Program
includes two CN elements, but in October 2006 this organization remained in a formative
stage. Once fully fielded, the Afghan owned, piloted, and maintained aircraft under the
direction of the Afghan Ministry of the Interior will support CN missions.
     •   The Counter Narcotics Aviation Squadron consisting of Mi-17 helicopters will
         support the National Interdiction Unit in operations throughout Afghanistan. Host
         nation aviation is the normal support for DEA in international environments.
     •   The Afghan Special Narcotics Force Squadron consisting of Mi-17 helicopters
         will support operations throughout Afghanistan. As of October 2006, this unit
         was mentored by the UKG and conducted primarily paramilitary operations using
         contract pilots. British officials confirmed their plan to convert the unit to law
         enforcement as security improved.
       In January 2006, U.S. Central Command published an information paper stating a
“counternarcotic aviation squadron has been created under control of the Afghan MoI
(Ministry of Interior) to support Afghan narcotics interdiction efforts.” During 2006
DOD worked to make the announcement a reality on the ground. The decision to provide
the counternarcotics aviation squadrons with Mi-17 helicopters increased the time
required to procure airframes, train pilots, certify operational capability, and prepare for
maintenance. As a result, only two of ten Mi-17s were present in Kabul in October 2006,
and neither was fully operational.

53
  CJCSI 3710.01A, DOD Counterdrug Support, dated March 30, 2004, prohibits “transportation support in
direct tactical support of the operational portions of ongoing LEA [law enforcement agency] … operations,
or of any activities where CD-related [Counter Drug] hostilities are imminent.” (para. 4.f.4, p A-5)

64                       Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED



       DOD plans call for shared maintenance and logistics at the Joint Aviation Facility
at Kabul International Airport. The Joint Aviation Facility phase I construction during
2006 supported this concept. Support for the Afghan Eradication Force was not included.

        The absence of operational Afghan aviation limits DEA’s ability to conduct
interdiction operations. The DOD discussion above outlines DEA’s reliance on DOD for
both direct support and equipping the Afghan NIU. DEA operational planning is
hindered by limitations on the INL wet lease and Huey II aircraft, as discussed relative to
INL air assets.

        In August 2005, DEA requested approval for basing support from DOD for an
Afghanistan based Beach King Air 350 aircraft. DEA also requested for DOD to obtain a
maintenance contract to support the aircraft. DOD stated that there was capacity and
ramp space, but insufficient land available for hanger construction at Bagram Airfield.
DEA accepted a temporary space at Kabul International Airport pending completion of
the Joint Aviation Facility.

        Finally, USAID established an administrative air transport service called
“Provincial Reconstruction Team Air (PRT-Air).” The service commenced in October
2004, providing passenger and accompanying baggage transport via two contracted King
Air 200 fixed-wing aircraft. While not primarily a CN asset, the planes provide another
means of moving personnel and equipment while further adding to the complexity of
aircraft mix.




Interagency Assessment of Afghanistan Counternarcotics Programs                         65
                UNCLASSIFIED




66   Interagency Assessment of Afghanistan Counternarcotics Programs
                               UNCLASSIFIED




Appendix C: Announcement of Interagency Assessment




Interagency Assessment of Afghanistan Counternarcotics Programs   67
                UNCLASSIFIED




68   Interagency Assessment of Afghanistan Counternarcotics Programs
                                  UNCLASSIFIED



Appendix D: Scope and Methodology

Scope

        This assessment was a self-initiated evaluation of the U.S. government’s
counternarcotics efforts in Afghanistan. It resulted from discussions between
representatives of the Inspectors General of State and Defense, U.S. Embassy Kabul, and
Combined Forces Command – Afghanistan during 2005. The assessment focused on the
overall effectiveness of U.S. strategy, management structure for implementing the
strategy, and interagency cooperation and coordination.

       The assessment team did not examine internal controls over financial, physical,
and personnel resources specified as an objective in the announcement for this
assessment (see Appendix C). The report does address contract management, but only of
contracts associated with the counternarcotics Public Information campaign.

Methodology

       An interagency team representing the Offices of Inspectors General of the
Departments of State, Defense, and Justice carried out this assessment. From September
through November 2006, the IG assessment team performed the following steps:

   •    Reviewed public law, Presidential Directives, and agency policy governing
        funding and implementation of the program.
   •    Conducted interviews with over 50 senior U.S. government officials responsible
        for the program, including: professional staff from the House of Representatives,
        representatives from the National Security Agency, Office of National Drug
        Control Policy, Central Intelligence Agency, and representatives of subordinate
        agencies within the Departments of State, Defense, and Justice.
   •    Conducted site visits and interviews at: the Joint Narcotics Analysis Center in the
        United Kingdom, the North Atlantic Treaty Organization and European Union in
        Belgium, and the United Nations Office of Drug Control in Austria.
   •    Conducted fieldwork and interviews with senior civilian and military Coalition
        government, Government of Afghanistan, and U.S. government officials in
        Afghanistan. Interviewed non-government officials from the United Nations
        Office of Drug Control and the World Bank in Afghanistan.
   •    Visited U.S. and Coalition personnel and facilities in Afghanistan, to include
        Kabul, Kandahar, Lashkar Gah, Jalalabad, Turkham, Faizabad, and Charchaghan.
   •    Conducted exit briefs with senior officials of the Departments of State, Defense,
        and Justice to obtain their comments on preliminary results.




Interagency Assessment of Afghanistan Counternarcotics Programs                        69
                UNCLASSIFIED




70   Interagency Assessment of Afghanistan Counternarcotics Programs
                                 UNCLASSIFIED



Appendix E: Management Comments and Evaluation
Response

Management Comments

In February 2007, the IG assessment team provided CN program stakeholders with a
draft report and requested management comments. The following organizations provided
formal comments in March 2007:
        Department of State
                U.S. Embassy, Kabul
                Bureau of International Narcotics and Law Enforcement Affairs
                Director General, Bureau of Human Resources
        Department of Defense
                Deputy Under Secretary of Defense for Counter Narcotics
                U.S. Central Command
                Combined Forces Command, Afghanistan
        Department of Justice
                Criminal Division
                Drug Enforcement Administration

Comments from management are either technical corrections to stated facts or responses
to recommendations. Technical corrections include editorial changes. The U.S.
Embassy, Kabul, Bureau of International Narcotics and Law Enforcement Affairs and
Deputy Under Secretary of Defense for Counter Narcotics made the distinction in their
responses. The remaining organizations did not clearly divide their comments.

Evaluation Response

The IG assessment team accepted all verifiable technical corrections, changing report
language to reflect improved data or concepts. In a small number of cases, changes
referring to information only available after November 2006 were not accepted.

The IG assessment team also reviewed all instances of partial concurrence and
nonconcurrence with our recommendations. Short summaries of management’s
comments and IG actions are included in italicized text following each recommendation.
Recommendations with which management concurred have no follow-on text.

Copies of the organization’s management comments were too voluminous for inclusion
in the report, but are available on request.




Interagency Assessment of Afghanistan Counternarcotics Programs                         71
If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of State:

                          Call the Office of Inspector General
                                      HOTLINE
                           202-647-3320 or 1-800-409-9926
                           Or e-mail oighotline@state.gov

                                  You may also write to
                                Office of Inspector General
                                 U.S. Department of State
                                  Post Office Box 9778
                                  Arlington, VA 22219
Cables to the Inspector General should be slugged “OIG Channel” to ensure confidentiality



                                    _____________




   If you suspect Fraud, Abuse, or Mismanagement in the Department of Defense:

                          Call the Office of Inspector General
                                      HOTLINE
                   1-800-424-9098 or e-mail hotline@dodig.osd.mil

                               You may also write to:
                                   Defense Hotline
                                    The Pentagon
                             Washington, DC 20301-1900
  EFFECTIVE MANAGEMENT ACCOUNTABILITY POSITIVE CHANGE

United States Department of State and the Broadcasting Board of Governors
                       Office of Inspector General
                            WWW.Oig.st8te.gov




             ACCOUNTABILITY INTEGRITY EFFICIENCY

                  United States Department of Defense
                       Office of Inspector General
                              www.dodig.mil
